I

I

fRev

AO 245B

EG_H CA

Document 198

Filed 08/20/14

Page lot 6

Sheet !

11

United States District Court
SOUTHERN DISTRICT OF IOWA
)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA
v.
David Lee Emmert Jr.

JUDGMENT IN A CRIMINAL CASE

Case Number: 3:11-cr-00116-001
USM Number: 13155-030
Stephen A. Swift
Defendant's Attorney

THE DEFENDANT:
□ pleaded guilty (o counl(s)
.0 pleaded nolo contendere to count(.s)
which was accepted by the court.
5?fwas found guilty on count(s)
Two of the Indictment filed December 13, 2011
after a plea of not guilty.
Tire defendant is adjudicated guilty of these offenses:
Title & Section

£J|

18 USD § 2252(a)(4)(B)*

Nature of Offense
Possession of Child Pornography

r!Si

Offense Glided

Count

02/12/20,10

Two

-

2252(b)(2)
:C:?!
T/dUfS',;

illili®

■IlilllllllSilil ;■ 1

mmm

iff.;

iiisiilllilili

ill
55 _

1

O See additional count(s) on page 2
I he delendant is sentenced as provided in pages 2 through 6
Sentencing Reform Act of 1984.

ot this judgment. The sentence is imposed pursuant to the

□ The defendant has been found not guilty on count(s)
Sj*Count(s)

One of the Indictment

OB^is

□ are dismissed on the motion of the United States.

... 11 is ordered lhafthe defendant mist notify the United Slates attorney for this district within 30 days of any change of name, residence
or mailing address until ail fines, restitution, costs, and special assessments imposed by this judgmeut are fully paid. If ordered to pay restitutio
the defendant must notify die court and United States attorney of material changes in economic circumstances.
August 20, 2014
Date oflmpositiun of Judgment

Signature of Judge

James E. Gritzner, Chief U.S. District Judge
Name of Judge

Title of Judge

August 20, 2014
Date

k

'

■il

AO 245B

,Rct.^S^11?£SJ«;JEG-HCA Dement 198 Filed 08/20/14 Page 2 of 6

vl

Sheet 2 — Imprisonment
Judgment Page: 2 of 6

DEFENDANT: David Lee Emmert Jr.
CASE NUMBER: 3:1 -Ucr-00116-001

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of:
240 months on Count One of the Indictment filed December 13, 2011

□ The court makes the following recommendations to the Bureau of Prisons:

The defendant is remanded to the custody of the United States Marshal.
□ The defendant shall surrender to the United States Marshal for this district:

□ at

□ a.m.

□ p.m.

on ____

□ as notified by the United States Marshal.
□ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□ before

on

□ as notified by the United States Marshal.
□ as notified by the Probation or Pretrial Services Office.

RETURN
I havie executed this judgment as follows:

Defendant delivered on
a

to

, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

AO 245B
**«1~

Case 3:ll-cr-00116-JEG-HCA Document 198 Filed 08/20/14 Page
3 of 6
3

(Rev. 09/111 Judgment in a Criminal Case
Sbeet 3 — Supervised Release

Judgment Page: 3 of 6

DEFENDANT: David Lee Emmert Jr.
CASE NUMBER: 3:11 -cr-00116-001

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of:
Ten years on Count One of the Indictment filed December 13, 2011
The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release from the
custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a controlled
substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least two periodic drug tests
thereafter, as determined by the court.
.
□

The above drug testing condition is suspended, based on the court’s determination that the defendant poses a low risk of
future substance abuse. (Check, ifapplicable.)
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon. (Check, ifapplicable.)
The defendant shall cooperate in the collection of DNA as directed by the probation officer. (Check, ifapplicable.)

M The defendant shall comply with the requirements of the Sex Offender Registration and Notification Act (42 U.S.C. S 16901, et sea.)
as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which he or she resides,
works, is a student, or was convicted of a qualifying offense. (Check, ifapplicable.)
□

The defendant shall participate in an approved program for domestic violence. (Check, ifapplicable.)

Scheduled fPayment^sh ^tP Hfr a-^jC 0r r®st‘tut*on>

Is a condition of supervised release that the defendant pay in accordance with the

on the attachedepeagemt mUSt COmply with the s,andard conditions that hjve been adopted by this court as well as with any additional condition

STANDARD CONDITIONS OF SUPERVISION
1)

the defendant shall not leave the judicial district without the permission of the court or probation officer;

2)

the defendant shall report to the probation officer in a manner and frequency directed by the court or probation office;

3)

the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;

4)

the defendant shall support his or her dependents and meet other family responsibilities;

5)

the defendant shall work regularly at a [awful occupation, unless excused by the probation officer for schooling, training, or other
ftcccptHoJc reasons;

6)

the defendant shall notify the probation officer at least ten days prior to any change in residence or employment;

7)

the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;

8)

the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;

9)

frie defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted of a
felony, unless granted permission to do so oy the probation officer;

10)

the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of any
contraband observed in plain view of the probation officer;

11)

the defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement officer;

12)

the defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and

13)

as directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s criminal
record or personal history or characteristics and shall permit the probation officer to make such notifications and to confirm the
defendant s compliance with such notification requirement.

AO 245B
vt-

-v "

Case 3:ll-cr-00116-JEG-HGA

(Rev. 09/11) Judgment in a Criminal Case
Sheet 3C — Supervised Release

Document 198

Filed 08/20/14

DEFENDANT: David Lee Emmert Jr.
CASE NUMBER: 3:11-cr-00116-001

Page 4 of 6

Judgment Page: 4"of 6

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall participate in a sex offender treatment program, to include psychological testing and a polygraph
examination, as directed by the U.S. Probation Officer. The defendant shall also abide by all supplemental conditions
of sex offender treatment, to include abstaining from alcohol. Participation may include inpatient/outpatient treatment,
if deemed necessary by the treatment provider. The defendant will contribute to the costs of services rendered
(co-payment) based on ability to pay or availability of third party payment. Sex offender assessments and treatment
shall be conducted by therapists and polygraph examiners approved by the U.S. Probation Office, who shall release
all reports to the U.S. Probation Office. The results of a polygraph examination will not be used for the purpose of
revocation of supervised release. If disclosure is required by mandatory reporting laws, polygraph resuits will be
reported to appropriate treatment personnel, law enforcement, and related agencies with the approval of the Court. If
polygraph results reveal possible new criminal behavior, this will be reported to the appropriate law enforcement and
related agencies after obtaining approval from the Court.
The defendant shall not have any contact (personal, electronic, mail, or otherwise) with any child under the age of 18,
including in employment, without the prior approval of the U.S. Probation Officer. If contact is approved, the defendant
must comply with any conditions or limitations on this contact, as set forth by the U.S. Probation Officer. Incidental
contact in the course of daily commercial transactions is permissible.
The defendant shall not contact the victims, nor the victims’ families without prior permission from the U.S. Probation
Officer.
The defendant shall not view or possess any form of sexually stimulating pornography, correspond with anyone in the
business of providing such material, or enter adult entertainment venues where sexually stimulating pornography is
the primary product(s) for purchase or viewing.
The defendant shail obtain residences as approved by the U.S. Probation Officer. The defendant shall notify the U.S.
Probation Office of any locations where the defendant receives mail or like matter. The defendant shall not obtain a
new mailing address, post office box, or the facility of any private business for residence or postal transactions without
the prior approval of the U.S. Probation Officer.
The defendant shall not possess or use a computer or any other device with an internal, external, or wireless modem,
without the prior approval of the U.S. Probation Officer. If computer use is approved, the defendant shall submit to
unannounced examinations of all computer equipment, the installation of monitoring hardware and software, and the
possible removal of such equipment for a more thorough inspection. If computer use for employment purposes is
approved by the U.S. Probation Officer, the defendant shall permit third party disclosure to any employer or potential
employer concerning any computer-related restrictions that are imposed upon the defendant.
The defendant shall submit to a search of his person, property, residence, adjacent structures, office, vehicle, papers,
computers (as defined in 18 U.S.C. § 1030(e)(1)), and other electronic communications or data storage devices or
media, conducted by a U.S. Probation Officer. Failure to submit to a search may be grounds for revocation. The
defendant shall warn any other residents or occupants that the premises and/or vehicle may be subject to searches
pursuant to this condition. An officer may conduct a search pursuant to this condition only when reasonable suspicion
exists that the defendant has violated a condition of his release and/or that the area(s) or item(s) to be searched
contain evidence of this violation or contain contraband. Any search must be conducted at a reasonable time and in a
reasonable manner. This condition may be invoked with or without the assistance of law enforcement, including the
U.S. Marshals Service.
The defendant shall comply with all sex offender laws for the state in which he resides and shall register with the local
sheriffs office within the applicable time frame.
The defendant may not possess any type of camera (to include cameras within cellular telephones) or video recording
device without the prior approval of the U.S. Probation Officer.

Case 3:ll-cr-00116-JEG-HCA Document 198 Filed 08/20/14 Paqe5of6
0

(Rev. 09/11) Judgment m a Criminal Case
Sheet 5 — Criminal Monetary Penalties

AO 245B
vi

Judgment Page: 5 of 6

DEFENDANT: David Lee Emmert Jr.
CASE NUMBER: 3:11-cr-00116-001

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetaiy penalties under the schedule of payments on Sheet 6.

TOTALS

Assessment
$ 100.00

Fine
$ 0.00

□ The determination of restitution is deferred until
after such determination.

Restitution
$ 500.00

. An Amended Judgment in a Criminal Case (AO 2450 will be entered

(—3 The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
before ui^U^'td gI|J|urc-Cn^^| payment column below. However, pursuant to 18 tXS.C. § 3664(f), all nonfederal victims must be paid
Name of Payee

Total Loss*

DC

Restitution Ordered
$500.00

Priority’ or Percentage

$500.00

s

■ill
iijll
•St!

:r.<!
ifeliaassinfiisssps:!
:*r

•S:

>!

iflillii

- IhV! ? 1 s ~
$500.00

TOTALS

$500.00

□

Restitution amount ordered pursuant to plea agreement $

□

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be sub ject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

Kr

3 he court determined that the defendant does not have the ability to pay interest and it is ordered that:
□ fine

the interest requirement is waived for the
□ the interest requ irement for the

LFpri;mnber^^

□

fine

H*’ restitution.

□ restitution is modified as follows:

U,UlCr Chapers 109A> 110> N0A, and 113 A of Title 18 for offenses committed on or after

AO 245B
vl

Case 3:ll-cr-p01l6-JEG-HCA Document 198 Filed 08/20/14 Page
6 of 6
°

(Rev. 09/1 1) Judgment in a Criminal Case
Sheet 6 — Schedule of Payments______

Judgment Page: 6 of 6

DEFENDANT: David Lee Emmert Jr.
CASE NUMBER: 3:11-cr-00116-001

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

Sf* Lump sum payment of S
□ not later than
BB/ in accordance

600.00

□ C,

due immediately, balance due

□ D,

□

, or
E, or

below; or

B

□

Payment to begin immediately (may be combined with

C

□

Payment in equal
(e.g.. weekly, monthly, quarterly) installments of $
__ over a period of
<e.g.. months or years), to commence
__• (e.g.. 30’or 60 clays) after the date of this judgment ; or

D

□

Payment in equal
(e g., weekly, monthly, quarterly) installments of $
____________ over a period of
(e.g.. months or years), to commence
(e.g., 30 or 60days) after release from imprisonment to a
term of supervision; or

E

□

Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant's ability to pay at that time; or

F

fflf Special instructions regarding the payment of criminal monetary penalties:

DC,

□ D, or

□ F below); or

All criminal monetary payments are to be made to the Clerk's Office, U.S. District Court, P.O. Box 9344,
Des Moines, IA. 50306-9344.
While on supervised release, you shall cooperate with the Probation Officer in developing a monthly payment plan
consistent with a schedule of allowable expenses provided by the Probation Office.

^prfsVnmen^^?crimnafSmo°i«areCl
‘fdns^udgment imposes imprisonment, payjixmt of crimnal^nonctaty penalties is due during
Responsibility Program, are made tot^e clerk" of thecourt. * aymen s macie through the Federal Bmeau of Prisons nmate Financial
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

□

Joint and Several
Defendant and Co-Defendant Nantes and Case Numbers (including defendant number), Total Amount, Jointand Several Amount
and corresponding payee, if appropriate.

□

The defendant shall pay the cost of prosecution.

□

The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant’s interest in the following property to the United States:
A Black WD external hard drive (SN: WCAUK0053961); a HP black laptop and power cord (SN: CNF7235244); a HR
silver computer tower (SN: MXK5120W9J; a Black WD hard drive (SN; WMAL73714372); and a Logitech webcame
(SN; LNA43201570).

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal
(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

United States of America, Plaintiff - Appellee v. David Lee Emmert. Jr., Defendant - Appellant
UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT
2016 U.S. App. LEXIS 10811
No. 14-2969
January 15, 2016, Submitted
June 15, 2016, Filed
Editorial Information: Prior History
Appeal from United States District Court for the Southern District of iowa - Davenport.
Counsel

For United States of America, Plaintiff - Appellee: Clifford R. Cronk,
Assistant U.S. Attorney, U.S. Attorney's Office, Davenport, IA.
David Lee Emmert. Jr., Defendant - Appellant, Pro se, Marion,
IL
For David Lee Emmert. Jr., Defendant - Appellant: Stephen
Arthur Swift, Klinger & Robinson, Cedar Rapids, IA.
Judges: Before WOLLMAN, MELLOY, and COLLOTON, Circuit Judges.
CASE SUMMARYEvidence of defendant's prior sexual abuse conviction and alleged abuse of a minor
was admissible under Fed. R. Evid. 414 at his trial for possession of child pornography; enhancement of
his sentence under 18 U.S.C.S. § 2252(b)(2) based on his sexual abuse conviction at age 17 did not
violate the Eighth Amendment.
OVERVIEW: HOLDINGS: [1]-Admission at defendant's trial for possession of child pornography of
evidence of his prior conviction for sexual abuse of his sister and his alleged sexual abuse of his*
daughter was proper under Fed. R. Evid. 414. The evidence showed he had a propensity for exploiting
young girls and connected him to pornographic images found on his computer; [2]-Enhancement of
defendant's sentence under 18 U.S.C.S. § 2252(b)(2) based on his prior conviction, which occurred when
he was 17, did not violate the Eighth Amendment. Convictions for crimes committed as a juvenile could
be used in determining whether the § 2252(b)(2) enhancement applied; [3]-The district court did not err in
ordering defendant to pay restitution to one victim to cover medical expenses, as the victim received
treatment subsequent to the time defendant possessed images of her.
OUTCOME: Judgment affirmed.
LexisNexis Headnotes
Evidence > Relevance > Sex Offenses > Similar Crimes > Child Molestation Cases
Evidence > Relevance > Confusion, Prejudice & Waste of Time
A court of appeals reviews evidentiary rulings for abuse of discretion. Fed. R. Evid. 414 provides that in
a criminal case in which a defendant is accused of child molestation, the court may admit evidence that

A08CASES

I

© 2017 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product Is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

13155030

the defendant committed any other child molestation. Fed. R. Evid. 414(a). "Child molestation" includes
acts relating to child pornography which are prohibited by 18 U.S.C.S. ch. 110. Rule 414(d)(2)(B). The
evidence can be used for any purpose for which it is relevant, including the defendant's propensity to
commit such offenses. Evidence of a prior child molestation is relevant if it was committed in a manner
similar to the charged offense. If the evidence is relevant, admissibility hinges on whether the testimony's
probative value is substantially outweighed by one or more factors enumerated in Fed. R. Evid. 403. In
evaluating admissibility of Rule 414 evidence, placing limits on the testimony and providing cautionary
jury instructions may indicate that the district court properly balanced the probative value with the risk of
unfair prejudice.
Evidence > Relevance > Sex Offenses > Similar Crimes > Child Molestation Cases
Congress placed no time limit on Fed. R. Evid. 414 evidence.
Criminal Law & Procedure > Appeals > Standards of Review > De Novo Review
Governments > Legislation > Interpretation
A court of appeals reviews claims of constitutional error and issues of statutory construction de novo.
Criminal Law & Procedure > Criminal Offenses > Sex Crimes > Child Pornography
Criminal Law & Procedure > Sentencing > Ranges
18 U.S.C.S. § 2252(b)(2) increases the minimum and maximum sentences in child pornography cases
where the defendant has a prior sexual abuse conviction.
Criminal Law & Procedure > Sentencing > Cruel & Unusual Punishment
Criminal Law & Procedure > Sentencing > Ranges
Criminal Law & Procedure > Criminal Offenses > Sex Crimes > Child Pornography
Constitutional Law > Bill of Rights > Fundamental Rights > Criminal Process > Cruel & Unusual
Punishment.
The Eighth Amendment does not prohibit the use of a juvenile adjudication as the basis for applying the
18 U.S.C.S. § 2252(b) sentencing enhancement.
Criminal Law & Procedure > Criminal Offenses > Sex Crimes > Child Pornography
Criminal Law & Procedure > Sentencing > Ranges
Constitutional Lav/ > Bill of Rights > Fundamental Rights > Criminal Process > Cruel & Unusual
Punishment
Armed Career Criminal Act sentencing enhancements based on convictions for crimes committed as a
juvenile do not violate the Eighth Amendment. Such convictions necessarily may be considered in
determining whether the 18 U.S.C.S. § 2252(b) enhancement applies.
Criminal Law & Procedure > Sentencing > Restitution
A court of appeals reviews a district court's decision to award restitution for an abuse of discretion and
the district court's finding as to the amount of loss for clear error.
Criminal Law & Procedure > Sentencing > Restitution
Criminal Law & Procedure > Criminal Offenses > Sex Crimes > Child Pornography
Pursuant to 18 U.S.C.S. § 2259, restitution is proper only to the extent that the defendant's offense

A08CASES

2

© 2017 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement,

B

13155030

proxtmately caused the victim's losses. The unlawful conduct of everyone who reproduces, distributes, or
possesses the images of a victim's abuse plays a part in sustaining and aggravating the tragedy. In
determining the amount of restitution owed to a child pornography victim by a defendant, district courts
may consider a number of factors, though they should not treat the inquiry as a purely mathematical or
mechanical exercise.
Opinion
Opinion by:

MELLOY
Opinion

MELLOY, Circuit Judge.
David Emmert. Jr., was convicted by a jury of possession of child pornography, in violation of 18
U.S.C. § 2252(a)(4)(B) and 2252(b)(2). The district courtl sentenced Emmert to 240 months in
prison and ordered him to pay $500 in restitution to one of his victims. Emmert appeals, arguing the
district court erred in: (1) admitting evidence of his prior sexual abuse conviction and uncharged
sexual abuse of a minor; (2) enhancing his sentence based on an adult conviction for sexual assault
that occurred when Emmert was 17 years old; and (3) ordering restitution. We affirm.
I. Background
This case began as a sexual abuse investigation in February 2010 in response to allegations that
Emmert had sexually abused his 13-year-old daughter, LE. On February 12, 2010, officials obtained
a search warrant and conducted a search of Emmert's home. During the search, police found a
desktop computer with a webcam, a laptop computer, 39 DVDs, and an external hard drive. The
DVDs contained sexually explicit images and videos of JS, a girl who had been fourteen or fifteen
years old when the images were recorded. The external hard drive contained images of at least three
different minor females: DF from Ohio, LM from Georgia, and DC from Nevada. All three were
thirteen or fourteen years old when the images were recorded. Investigators also found programs
related to hacking and webcam infiltration on Emmert's desktop computer. During the course of the
investigation, officials learned Emmert had been convicted for sexually abusing his younger sister,
EB. in 1989. when Emmert was -17.
On December 11, 2011, a grand jury indicted Emmert on charges of sexual exploitation of a child, in
violation of 18 U.S.C. §§ 2251(a), 2251(e), and 3559(e), and possession of child pornography, in
violation of 18 U.S.C. § 2252(a)(4)(B) and 2252(b)(2). On December 21, 2011, the government
advised Emmert that he faced increased penalties if convicted due to his prior conviction for
sexually abusing EB. Specifically, the potential penalty for possession of child pornography
increased from a ten-year maximum sentence to a ten-year minimum sentence and a twenty-^year
maximum sentence.
Before trial, the government dismissed the charge for sexual exploitation of a child. Emmert also
filed two motions in limine, suggesting he would face unfair prejudice if the government were allowed
to introduce evidence of: (1) his 1989. conviction for sexual abuse of EB, and (2) the uncharged
allegations of sexual abuse of LE. The district court denied Emmert's motions and permitted the
government to use evidence relating to EB and LE under Rule 414. The district court provided a
cautionary instruction to Jurors regarding this evidence.

A08CASES

3

© 2017 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

13155030

A jury trial commenced on May 5, 2014, regarding the remaining count of possession of child
pornography. EB, LE, and four minor females testified against Emmert. JS testified about her
two-year online relationship with Emmert. during which he threatened to hack her computer if she
did not provide certain sexually explicit images. LM and DC testified that they were asked to perform
sexually explicit acts over webcam and knew someone was watching, but they did not know they
were being recorded. DC learned she was being recorded when her mother found out about an
explicit video of her posted on a website. LM also learned videos of her had been recorded from
other people who saw the videos online. DF testified she did not know or believe that anyone was
watching her through her webcam until Emmert contacted her and threatened to publish explicit
images of her unless she followed his orders. When DF created a new email account to escape
Emmerfs harassment, Emmert eventually tracked her down and published 135 explicit images of
DF on the social networking and photo sharing site, Flickr, as punishment. An investigator testified
that images of JS, DF, LM, and DC were found on Emmert's external hard drive and his DVDs.
On May 9, 2014, the jury found Emmert guilty of possessing child pornography, including at least
545 videos and 180 images. The district court sentenced Emmert to 240 months in prison and a
lifetime of supervised release and ordered him to pay $500 in restitution to the family of DC to cover
medical expenses related to suicide attempts and cutting herself. Emmert appeals.
II. Discussion
Emmert argues the district court erred in: (1) admitting Rule 414 evidence of a prior sexual abuse
conviction and uncharged sexual abuse of a minor; (2) enhancing his sentence based on an adult
conviction of sexual assault that occurred when Emmert was 17 years old; and (3) ordering
restitution.
A. Rule 414 Evidence
We review evidentiary rulings for abuse of discretion. United States v. Never Misses A Shot. 781
F.3d 1017, 1027 (8th Cir. 2015). Rule 414 provides: "In a criminal case in which a defendant is
accused of child molestation, the court may admit evidence that the defendant committed any other
child molestation." Fed. R. Evid. 414(a). "Child molestation" includes acts relating to child
pornography which are prohibited by.18 U.S.C. chapter 110. ]d. 414(d)(2)(B). The evidence can be
used for any purpose for which it Is relevant, "including the defendant’s propensity to commit such
offenses." United States v. Gabe. 237 F.3d 954, 959 (8th Cir. 2001). Evidence of a prior child
molestation is relevant if it was "committed in a manner similar to the charged offense." Never
Misses A Shot. 781 F.3d at 1027 (quoting United States v. Rodriquez. 581 F.3d 775, 796 (8th Cir.
2009)). If the evidence is relevant, "admissibility hinges on whether the testimony's probative value is
substantially outweighed by one or more factors enumerated in Rule 403." jd. In evaluating
admissibility of Rule 414 evidence, placing limits on the testimony and providing cautionary jury
instructions may indicate that the district court properly balanced the probative value with the risk of
unfair prejudice. See United States v. Crow Eagle, 705 F.3d 325, 328 (8th Cir. 2013).
Here, Emmert argues his prior conviction for sexual abuse of EB and the alleged sexual abuse of LE
are too dissimilar to be relevant to the instant charged offense of possession of child pornography. In
particular, Emmert contends the nature of the offenses are different because he knew EB and LE
were minors, but did not know three of the alleged victims of child pornography were minors. In
addition, Emmert claims that his conviction for sexually abusing EB is too remote to the current
proceeding and that the testimony of LE regarding the uncharged sexual abuse is unreliable.
Because EB and LE were the first witnesses called by the government, Emmert contends their
testimony was highly prejudicial in shaping the jury's first impression of him.

A08CASES

4

© 2017 Matthew Bender & Company, Inc., a member of the LexisNexis Group. Al! rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the'Matthew Bender Master Agreement.

13155030

As the district court concluded, the evidence that Emmert sexually abused EB and LE is probative of
Emmert's interest in underage girls. Emmert's sexual abuse and child pornography victims were
similar in age, and Emmert performed.or possessed images depicting similar explicit acts on each
victim. In this way, Emmert’s prior conduct shows he has a propensity for exploiting young girls and
connects him to the pornographic images found on his hard drive. The district court tempered the
prejudicial effect of this evidence by providing a jury instruction on propensity evidence. Moreover,
for Rule 414 purposes, it does not matter that Emmert's prior sexual abuse of EB occurred up to
twenty years before the instant offense. See Gabe. 237 F.3d at 960 (noting that Congress placed no
time limit on Rule 414 evidence and permitting evidence of sexual abuse from twenty years ago).
Thus, we affirm the district court's decision to admit evidence of Emmert's prior acts of sexual abuse.
B. Sentencing Enhancement
Next, Emmert argues the district court violated the Eighth Amendment when it imposed a sentencing
enhancement pursuant to 18 U.S.C. § 2252(b)(2).2 "We review claims of constitutional error and
issues of statutory construction de novo." United States v. Smith. 656 F.3d 821, 826 (8th Cir. 2011)
(quoting Roval v. Kautzkv. 375 F.3d 720, 722 (8th Cir. 2004)).
At oral argument, Emmert's counsel cited United States v. Svkes. 809 F.3d 435 (8th Cir. 2016), in
which we considered whether the Eighth Amendment prohibits the use of a juvenile court conviction
for enhancement purposes under the Armed Career Criminal Act ("ACCA"). Although similar to the
issue here, Svkes does not foreclose arguments that the § 2252(b) enhancement is distinguishable
from the ACCA enhancement. Rather, we look to United States v. Woodard. 694 F.3d 950, 953 (8th
Cir. 2012), where we held that the Eighth Amendment does not prohibit the use of a juvenile
adjudication as the basis for applying the § 2252(b) sentencing enhancement. In so holding, we
relied on a prior holding that a juvenile adjudication may constitute a prior conviction with regard to
the ACCA sentencing enhancement. See United States v. Smallev. 294 F.3d 1030, 1031 (8th Cir.
2002). In Woodard, we "applfiedj the fSmallevl analysis ... [to] hold, that a juvenile adjudication may
be considered a prior conviction under 18 U.S.C. § 2252(b)." Woodard. 694 F.3d at 953.
Here, we are presented with a constitutional, rather than statutory, question. As discussed above, we
have determined that ACCA sentencing enhancements based on convictions for crimes committed
as a juvenile do not violate the Eighth Amendment. Svkes. 809 F.3d at 440; United States v. Jones.
574 F.3d 546, 553 (8th Cir. 2009). Considering the logic of Woodard, such convictions necessarily
may be considered in determining whether the § 2252(b) enhancement applies. Therefore, we
conclude that the district court did not err when it considered Emmert's prior conviction for sexual
assault in applying the § 2252(b) sentencing enhancement.
C. Restitution
Finally, Emmert argues the district court erred in ordering restitution when no causal connection
between his actions andDC's losses had been established. "We review 'the district court's decision
to award restitution for an abuse of discretion and the district court's finding as to the amount of loss
for clear error.'" United States v. Beckmann. 786 F.3d 672, 681 (8th Cir. 2015) (quoting United
States v. Kav. 717 F.3d 659, 666 (8th Cir. 2013)). Pursuant to 18 U.S.C. § 2259, "Restitution is
proper... only to the extent that the defendant's offense proximately caused the victim’s losses." jd
at 682 (citing Paroline v. United States. 134 S. Ct. 1710, 1720, 188 L. Ed. 2d 714 (2014)). The
Supreme Court noted, "The unlawful conduct of everyone who reproduces, distributes, or possesses
the images of [a] victim’s abuse ... plays a part in sustaining and aggravating th[e] tragedy."
Paroline. 134 S. Ct. at 1726. "[I]n determining the amount of restitution owed to a child pornography
victim by a defendant, district courts may consider a number of factors, though they should not treat

A08CASES

5

©2017 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this productis subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

B

13155030

the inquiry as a purely mathematical or mechanical exercise." United States v. Evans. 802 F.3d 942,
950 (8th Cir. 2015).
Emmert argues the district court should not have ordered restitution because there was no evidence
offered at sentencing to support a basis for awarding restitution. As documented in Emmert's PSR
and at oral argument, the parties disagree as to when DC was informed that Emmert possessed
images of her and when she sought treatment.3 Emmert contends that DC's treatment predates the
time when DC became aware that Emmert possessed the pornographic images of her. As such,
Emmert concludes that he cannot be held responsible for a loss arising before he committed the
instant offense. In awarding restitution, the district court concluded: "Because this is a rather modest
claim under all of the circumstances and while it is not related to specific medical care, the fact of
some emotional distress that might have supported the need for some medical care, I think the
amount of $500 ... is adequately supported by the record."
During trial, DC testified that after learning the explicit video of her was posted online, she felt
"ashamed and really guilty." DC's mother also testified that DC "was devastated about the fact that
all of these strange people were out there watching her." Considering this testimony, the mere
absence of evidence detailing the specific nature and timing of medical expenses is not sufficient to
show an abuse of discretion. Further, Emmert's causation arguments are unavailing in light of
Paroline. which recognized the existence of ongoing harm each time someone possesses images of
a victim. At trial, the jury found beyond a reasonable doubt that Emmert possessed child
pornography between 2005 and February 2010. For purposes of considering restitution, there was
evidence at trial that Emmert possessed a video of DC as of June 9, 2008. R. Doc. 194, at 140-41,
203, 210. Contrary to Emmert's contentions, the government need not prove that DC Incurred a loss
after she learned Emmert's identity in 2011. Rather, it is sufficient to show that DC received
treatment subsequent to the time Emmert possessed images of her. Because the record supports a
finding that Emmert possessed images in June 2008, and DC requested restitution for treatment and
services provided in 2009 and 2010, the district court did not abuse its discretion in concluding that
Emmert proximately caused DC's loss. Finally, despite the fact that DC has not documented each
expense, the district court was entitled to rely on the testimony and a basic knowledge of medical
expenses in determining that $500 in restitution was a reasonable and likely underestimated sum for
the type of medical and psychological treatment DC required. Thus, we conclude that the district
court did not abuse its discretion in awarding DC restitution, nor did the district court clearly err in
determining the amount of the loss to be $500.
ill. Conclusion
Based on the foregoing, we affirm the judgment of the district court.
Footnotes

1
The Honorable James E. Gritzner, United States Chief District Judge for the Southern District of
Iowa,
2
Section 2252(b)(2) increases the minimum and maximum sentences in child pornography cases
where the defendant has a prior sexual abuse conviction.
3

A08CASES

6

© 2017 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

13155030

»

The Victim Impact portion of Emmert's PSR included DC's claim for "$500 in restitution to cover her
medical expenses (copayments arid out of pocket expenses) from suicide attempts and cutting
herself." However, the PSR reflects that "fEmmertl objected]. . . , noting that DC's request involve
(sic) her medical care and treatment in 2009 and 2010 and that it was not until 2011 when it was
discovered that fEmmertl possessed child pornography involving DC."

A08CASES

7

© 2017 Matthew Bender & Company, Inc., a member of the LexfsNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the'Matthew Bender Master Agreement.

13155030

Klinger, Robinson & Ford, l.l.p.
ATTORNEYS AT LAW
401 OLD MARION ROAR NE
Mailing Address:

P. O. Box 10020

CEDAR RAPIDS, IOWA

52410-0020

PHILLIP D. KLINGER
JEFFREY P. TAYLOR
JONATHAN B. HAMMOND
STEPHEN A. SWIFT

TELEPHONE
. (319) 395-7400
CABLE: TESHUB
FACSIMILE
(319) 395-9041

ROBERT E. FORD, Retired
GARY L. ROBINSON (1947-1998)

Writer’s E-mail: sswifi@krllawtlnn.com

June 23, 2016

LEGAL MAIL-Open ONL Y in the
/Presence of the Inmate
David Lee Emmert, Jr. - Register #13155-030
USP Marion
United States Penitentiary
P.O. Box 1000
Marion, IL 62959
Dear Mr. Emmert:
1 am in receipt of your letter dated June 7, 2016. I have reviewed that letter and made a review of prior
communications Pve had with you on this case, particularly as it relates to this issue, I have also done some
updated research. Enclosed you will find a copy of the recent decision from, the 9th Circuit, United States v.
Sullivan. 797 F.3d. 623 (9th Cm, July 29, 2015). In that case the. 9tn Circuit concluded that the California
convictions that that defendant had would qualify as the appropriate predicate offenses. In making this conclusion,
the Sulli van Court cites back to the Tavlor v. United. States Supreme Court case, Taylor v, United States. 495 U.S.
575, which talks about the general principal of applying a federal generic definition of tire crime, and then
comparing the elements of the stale offense with that federal generic definition. In addition, in IS U.S.C. §2252
the language that supports the enhancement provides as follows:
.relating to aggravated sexual abuse, sexual abuse, or abuse of sexual conduct involving a minor
or ward,.
The term relating has been given a broad definition, as recognized in the Sullivan case and previously recognized
in the 8th Circuit. In addition, I believe the Slh Circuit may have also recently addressed this issue.
The Johnson case struck out a portion of the Armed Career Criminal Act, specifically that portion that deals with
the “or otherwise involves conduct that presents a serious potential risk of personal injury to another.” I believe
this was struck down as it was considered to be void due to the vagueness and lack of specific definition. That
has not been extended to this statutory framework.

A

n

A• a ^ ,")

.

Page Two
June 23.2016

There is a pending case from Iowa that may add some clarification in this area. The case of United Slates v. Ivlathis
was. argued a couple: months ago. and decision may come out any day now. This deals with the Iowa burglary
statutes and whether or not they can be predicate offenses under the Armed Career Criminal. Again, this deals
with the.categorical definitions of Taylor and what burglary convictions may end up qualifying. Potentially there
may be some, arguments raised as to the lack of federal statutory definitions of the terms in IS U.S.C. §2252.
Specifically, the terms of “aggravated sexual abuse”, “sexual abuse’' and “abuse of sexual conduct” are not ■
specifically defined. Congress has relied upon the case law developed to include those state court convictions as
sufficient to be predicate offenses.
Brief and Argument has been conducted in your case. We have not directly addressed or relied upon this issue.
We addressed it as a potential violation of the 8th A mendment for cruel and unusual, punishment. This argument
related to the fact that your enhancement was based on a conviction occurring prior to your turning age 18. That
is not the same legal argument as the Johnson argument.
I do not see the basis for the Johnson case to be applicable in your case. You may want to raise that in the event
you are unsuccessful in this appeal as an alleged error or ineffective assistance of counsel.
Yours duly,
KLINGER, ROBINSON & FORD. L.L.P.
- -'///
4H^ephen A. Swift

SAStgrl
Enclosure
13286

fa

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA

DAVID LEE EMMERT, JR.,
Petitioner - Movant,

vs.
UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)

Case No. 4:18-cv-92-JEG

REPLY TO COUNSEL'S RESPONSE, AND
MOTION FOR LEAVE TO AMEND § 2255

David Emmert appears pro se to reply to counsel's response (Doc. No. 18),
and moves the Honorable Court to amend his previously filed petition under
28 U.S.C. § 2255.

I

Movant proposes only one ground for relief:

PROPOSED GROUND
Whether, in Light of Mathis v. United States, 136 S.Ct. 2243 (June 23,
2016), Mr. Emmert's Fifth Amendment (Due Process), or Sixth Amendment
(Effective Assistance of Counsel), Rights Are in Violation Because His
Prior State-Court Conviction Under Illinois Statute 720 ILCS 5 / 11-1.20
(was 720 ILCS 5 / 12-13) [Criminal Sexual Assault in § 12-13{a)(3), Chapter
38, Illinois Revised Statute (1989)], Cannot Qualify to Enhance His Statutory
Mandatory Minimum Sentence.

D

II

REASONS THE PROPOSED GROUND IS A VALID REQUEST

1.

Mathis was decided on June 23, 2016, just eight days after Mr. Emmert's

appeal order was issued by the Eighth Circuit.

United States v. Emmert, 825

F.3d 906 (8th Cir. 2016).
2.

Emmert received his current counsel's "Response to Court's Order No, 7"
**

(Doc. No. 18) on August 9, 2018.
3.

The combined effect of having considerable time to reflect on his writings

thus far, coupled with current counsel Adam Zenor's effectively throwing in
the towel under Rule 11 of the Fed. R. Civ. P., have together produced an
obvious and singular claim:
of

While his appellate attorney could not have known

Mathis prior to the Eighth Circuit's decision, he did have time under

the 14-day window of Rule 35 and Rule 40 of the Federal Rules of Appellate
Procedure to make the argument proposed herein.
4.

Even if his appellate counsel cannot be faulted for such an obvious blunder,

the instant court may consider the ground a due process violation as described
in Mathis itself.

Ill

AUTHORITY IN SUPPORT
The short version of the holding in Mathis that has successfully overturned

numerous illegal mandatory minimums across the country, is simply:

A state-

court prior statute of conviction that enumerates various factual means of
committing a single element, rather than one that lists multiple elements
disjunctively is indivisible and therefore subject to the categorical approach.
Jones v. United States, 870 F.3d 750 (8th Cir. 2017)

(Citing Mathis, 136

** Mr. Zenor's assessment missed that Emrert made a sentencing enhancement complaint. That, coupled
with the reasons contained herein provide further factual support for this proposed amendment.

2

S.ct. 2243 at 2249, 2253 (2016).
Mathis is not limited in its application to "only" the ACCA.
example, Jd. at 136 S.Ct. 2251 & *fn.2 (Immigration);

See, for

see also, United States

v. Patterson, U.S. O.C. Minn. 0:17-cv-3537, 2017 U.S. Dist. LEXIS 183460 (on
mertis of guidelines (career offender, not ACCA) sentence argument in a 2255
where defense counsel was not ineffective for failing to raise Mathis, claim
at sentencing because Mathis was decided a year after that.)
Richard Mathis, from Iowa, is a registered sex offender, like Mr. Emmert.
Prior state-court sex offenses have often been analyzed and in a few cases
been stricken down as inapplicable to enhance a defendant.

See, Coleman v.

United States, U.S. D.C. W.D. Wis. (lO-cv-736, 2016 U.S. Dist. 61610, May
10, 2016)

(Wisconsin sexual assault was a crime of violence in 1997, but

not so by the time Coleman's petition was filed; Petitition denied for other
reasons);

United States v. Cazares-Rodriguez, U.S. D.C. S.D. Cal. 3:17-cv-

327, May 19, 2017, U.S. Dist. LEXIS 76781 (Relief granted because California
statutes for criminal lewd acts upon a child and child molestation categorically
do not apply to removal and relief granted striking down applicability of
Title 8 U.S.C. § 1101, using Mathis);
F.3d 345 (3rd Cir. 2016)

See also, United States v. Dahl, 833

(Under Mathis, Delaware's sexual activity with minors

statutes became not categorically "sex offense convictions" because the state
statute defines "sexual contact" more broadly than the federal statute);
Kirk v. United States, U.S. D.C. N.D. Miss. No. 4:05-cr-52 (November 1, 2016)
(Georgia's statute for child molestation is no longer a "violent felony" under
Mathis).

3

D

IV

THE ILLINOIS STATUTE AND WHY, UNDER MATHIS, Uni ted States v, Sonnenberg,

556 F»3d 667 (8th Cir. 2009), IS NO LONGER TENABLE UNDER THE CONSTITUTION
The Categorical Approach and Modified Categorical Approach demand the
definition of the State Court crimes come from the state of conviction and
no-where else.

This is the approach the Supreme Court took in Begay v. United

States, 128 S.Ct. 1851 (2008), to the definition of a “violent felony" under
18 U.S.C. § 924(e)(2)(B) (ii).

At bar, Mr. Emmert's enhancement from the 0-

10 year range to the 10-to-20 year range is under 18 U.S.C. § 2252A(b)(2).
That statute provides a mandatory minimum sentence for those who have a prior
conviction "relating to aggravated sexual abuse, sexual abuse, or abusive
sexual conduct involving a minor."

Since these definitions are not in the

enhancement statute 2252A, but rather plainly, obviously, and have common
contemporary definitions in the earlier statutes of conviction (not enhancement)
in 18 U.S.C. § 2241-43, then, as a matter of federal law, the approach the
Supreme Court used in Begay (comparing the state statute to the federal definitions
obviously listed in the same chapter of federal definitions of sex offenses),
is the approach to use here.

Mathis' mandatory use of the categorical approach

demands nothing less than exact, strict due process usage such as this.
Emmert’s prior conviction in Illinois reads as follows:
"A person commits criminal sexual assualt if that person commits an act of
sexual penetration and
knows is

(1) uses force or threat of force; (2) that the victim

unable to understand the nature of the act or is unable to give

knowing consent; (3) is a family member of the victim, and the victim is under
18 years of age; or (4) is 17 years of age or over and holds a position of

4

J>

trust, authority, or supervision in relation to the victim, and the victim
is at least 13 years of age but under 18 years of age."

(720 lies 5 / li­

1.20).
lt is unquestioned that the conviction of record is set forth in paragraph
53 of the Presentence Investigation Report as falling under Section 12-13(a)(3).
Section (a)(3) is that part of the conviction of record where the person committing
the act "is a family member of the victim, and the victim is under 18 years
of age."

(PSR 1153).

Two things to notice.

Mr. Emmerts statute of conviction (the only thing

relevant here, as looking at what he actually did is not permitted under the
Categorical Approach) is not "aggravated sexual assault."
a different statutory

That would require

designation that is not in the record of conviction.

Second, the federal definitions "relating to aggravated sexual abuse,
sexual abuse, or abusive sexual conduct involving a minor" no-where consider
the broad scope of activity prohibited by the Illinois Statute: namely, penetrating
a family member who is under 18 years of age.
using "force or threat of force."

Emmert was not convicted of

He was not convicted of taking advantage

because he was someone "that the victim knows is unable to understand the
nature of the act or is unable to give knowing.consent."

He was not convicted

of doing something where he was "17 years of age or over and holds a position
of trust, authority, or supervision in relation to the victim, and the victim
is at least 13 years of age but under 18 years of age."
The Illinois Statute clearly "enumerates various factual means of committing
a singleelement" (here, mens rea).

**

Section 12-13(a)(1-4) will each produce

the same conviction with the same penalty range,

Subsection (a) (an act of

sexual penetration) is the "actus rea" element.

Factual means of committing

or causation, ibid.
5

the mens rea element are listed as Subsections (a}{1 through 4), and therefore
make the statute of conviction "Indivisible11.
This Mathis-based argument is something Emmert's counsel should have
made.

His trial counsel pointed out the older, sloppier way of analyzing

a state-court prior conviction in his sentencing memorandum.
at 8-9)

(Doc. Mo. 191

(Citing Descamps v. United States, 133 St. Ct. 2276, 2283-86 (2013).

This matters because what once was considered divisible and therefore vulnerable
to use of the "modified" categorical approach is no longer tenable.
Clearly, the alternative means of committing the Illinois offense encompasses
behavior that both is, and is not, "abusive."

Take, for example, the consentual

penetration of a step-brother and step-sister who are both 17 years old.
That would violate 720 ILCS 5 / 11-1.20 (was section 12-13(a)(3) in 1989).
It would not, however, be "abusive" as contemplated by the plain, ordinary,
everyday understand of Sonnenberg, nor would it violate the common definitions
found in the mandatory federal analogs of 18 U.S.C. § 2241-2248.

See, for

example, United States v. Osborne, 551 F.3d 718 (7th Cir. 2009).
And it is the enhanced punishment of an aggravated version of the statute
that clarifies this. In Mathis, "the statute on its face may resolve the issue.
If statutory alternatives carry different punishments, then under Apprendi
they must be elements." Mathis, 136 S.Ct. 2243 at 2256.

The Mathis court

went on to emphasize the difference between a jury having to "agree on any
circumstance increasing a statutory penalty," and if a statutory list is drafted
to offer "illustrative examples," then it includes only a crime's means of
commission." Id.

Thanks to the exhaustive efforts of the PSR, and the reliable

record from the state of Illinois, we know (are not guessing) that Mr. Emmert's

6

D

statute of conviction is not “divisible".
5.

He was not convicted of 720 I ICS

That would be a chapter of several different sexual offenses with a wide

range of punishments,
either.

It does not stop short, say of listing Section 12-13,

The state of Illinois statutes have an (a), (b), etc • > all with different

range of punishments and different elements.

No.

What we have here, is the

very specific statute of conviction of 12—13(a) {sexual penetration), with
one range of punishments.

And, just so we don't have to go guessing as to

which causal mCns r.ea element examples (factual scenarios) were used (some
within and some outside the federal crimes relating to abusive sexual issues),
what we have is very specific:

Sexual penetration between two members of

a family, where one is under the age of 18.
force or violence.

No implied abuse.

Just broad examples of bad taste.

even take the time to narrow it down to incest.

No implied

The statute does not

It could be between, as we

said before, a step-brother and a step-sister, two gay step-siblings, or whatever.

V

CONCLUSION
Because the Illinois statute is defined more broadly and is indivisible

than is permissible vis-a-vis the federal statutes and common sense, then
under Matins, Mr. Emmert is requesting a merits-based, amended 2255 ground.
Mr. Emmert's counsel was Ineffective on appeal, or his Due Process rights
are being violated for the continued use of the prior conviction to enhance
him with a statutory mandatory minimum.
Of further consideration of the efforts of Mr. Zenor, Emmert cannot contend
with a trained attorney and it would cast Emmert in a bad light if he waxed
into aggravated animosity.

However, while Emmert agrees in part with Zenor's

7

assessment, he disagrees that he has not met the burden of cause and prejudice,
where cause and prejudice can be met by alleging cumulative attorney error.
Most of counsel's response deals with off-handedly dismissing issues already
addressed, but fails to confront that these issues were addressed weakly (that
is, ineffectively).

The Sixth Amendment right to counsel is a different claim

than say, a Fourth Amendment search warrant issue and one may argue the latter
was ineffectively argued/researched with a "reasonable probability of a different
outcome" because of the former, in a 2255.

Mr. Emmer.t respectfully requests

that the Honorable and generous court.cast its consideration on this point
as it decides whether to agree with Mr. Zenor's assessment of the first 2255
efforts.
WHEREFORE,, for all of the reasons mentioned above, Mr. Emmert respectfully
requests that the Honorable Court GRANT his leave to amend by one Ground (Fed.R.Civ.P.15a-d).
and GRANT Mr. Zenor the opportunity to base his own amended grounds “set forth,
or attempted to be set forth" in the original complaint.

/ s/
301 ft
Date^Execu tecT
Linder penalty of perjury pursuant to
28 U.S.C. § 1746, I hereby swear and verify that
the foregoing is true and correct as an affidavit;
further, that it has been deposited this day in the
institution's internal mail system designed for legal
mail, United States Postal Service, first-class postage.

Fed. R. Civ. P., Rule 15.

David Emmert, pro se
usm

§ t?> 155-030

P.O. Box 1000
Marion, IL 62959
Prepared By:
Eric Welch, paralegal

Certificate of Service
I hereby certify that a copy of the foregoing has been mailed via United
States Postal Service, first-class postage prepaid upon the following:
Cl i;

u
l

Cronk
U.5. At
S-fo+es Mfor/v ey 5 Q

Sfc^

-f

-I)

h:ivvIS'.ci

rA'0 C^jur' Avr
Hu'tc; V’OO
Moines •

31 o

IX A

■

53.80/
8

P pc

. 0,
r;o ,M«y. Aoa‘«'^

Titov ::

7 i?i I- .1

Case 4::LS-cv-000S?.-JEG Document 34 Filed 11/25/19 Page l ot 13

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
CENTRAL DIVISION
DAVID LEE EMMERT, JR.,
Movant,

Civil No. 4:18-CV-00092-JEG
Crim. No. 3:ll-cr-G01I6-JEG-HCA

vs.

ORDER

UNITED STATES OF AMERICA,
Respondent.

David Lee Emmert brought this pro se Motion to Vacate, Set Aside, or Correct Sentence
under 28 U.S.C. § 2255, challenging his conviction and sentence in United States v. Emmert,
3:1 l-cr-00116—JEG-HCA (S.D. Iowa) (“Crim. Case”).
sent Emmert in these § 2255 proceedings.

The Court appointed counsel to repre­

Order, ECF No. 7.

A movant is entitled to an evidentiary hearing on the § 2255 motion “[ujnless the motion
and the files and records of the case conclusively show” the movant is not entitled to relief.

28

U.S.C. § 2255(b); Voytikv. United States, 778 F.2d 1306, 1308 (8th Cir. 1985) (standard for
evidentiary hearing); see also Franco v. United States, 762 F.3d 761, 763 (8th Cir. 20)4) (“‘No
hearing is required .. . where the claim is inadequate on its face or if the record affirmatively
refutes the factual assertions upon which it is based.’”) (quoting Anjulo-Lopez v. United States,
541 F.3d 814, 817 (8th Cir. 2008)).
The files and records of the case conclusively show Emmert is not entitled to relief, there­
fore, no evidentiary hearing is necessary, and the § 2255 motion must be summarily dismissed.
1.

PROCEDURAL HISTORY
A juiy convicted Emmert of possession of child pornography in violation of 18 U.S.C.

§ 2252(a)(4)(B).
in prison.

J. 1, Crim. Case, ECF No. 198.

Id. at 2.

The Court sentenced Emmert to 240 months

Emmerf s conviction and sentence were affirmed on appeal.

Stales v. Emmert, 825 F.3d 906 (8th Cir. 2016).

United

Case 4:18-cv-00092-JLG Document 34 Filed 11/25/19 Page 2 of 13

In his original pro se § 2255 motion, Emmert asserted multiple grounds for relief.
ECF No. 1.

Mot.,

Because it was not clear what claims Emmert was asserting, the Court directed

Emmert to amend his pleading.

Order 1—2, ECF No, 4.

The Court then granted Emmert’s

request for counsel and directed counsel to file an amended motion.

Order 1-2, ECF No. 7.

Rather than amend the motion, counsel filed a report stating none of Emmert’s § 2255
claims were viable.

Report 8, ECF No. 18.

Emmert then filed a pro se response to counsel’s

report in which he sought leave to bring “only one ground for relief,” that is, a Fifth Amendment
claim based on Mathis v. United States, 136 S. Ct. 2243 (2016), and a Sixth Amendment claim
based on counsel’s failure to previously raise a Mathis-type claim.

Reply 1, ECF No. 19.

The

Court granted Emmert’s motion to amend, dismissed all previous claims, and directed the
Government to respond to Emmert’s claims.

Order 1-2, ECF No. 21.

The Government resists Emmert’s claims.

Resp., ECF No. 26.

supplemental materials in support of his claims.
Suppl., ECF No. 32.
Resp., ECF No. 30.

Emmert, pro se, filed

Affi, ECF No. 22; Reply, ECF No. 29; and

Counsel for Emmert also filed a response in support of Emmert’s claims.
The Court has considered all of these documents and materials in its

review and ruling on the § 2255 motion.
II.

DISCUSSION
A minimum and maximum sent ence for a child pornography conviction is imposed if a

defendant has a prior state conviction “relating to aggravated sexual abuse, sexual abuse, or
abusive sexual conduct involving a minor or ward.”

18 U.S.C. § 2252(b)(2).

Emmert was convicted of criminal sexual assault in Illinois.
Report (PSR) H 53, Crim. Case, ECF No. 188.

In 1989,

Final Presentence Investigation

Based on this conviction, the Government

sought enhanced penalties under 18 U.S.C, § 2.252(b)(2), which exposed Emmert to at least ten
but no more than twenty years in prison.

Enhancement Info., Crim. Case, ECF No. 5.
2

Case 4:18-cv-00092-JEG Document 34 Filed 11/25/19 Page 3 of 13

The Armed Career Criminal Act (ACCA) is another criminal statute that enhances
penalties for prior criminal conduct.

18 U.S.C. § 924(e)(1).

In order to qualify as a predicate

felony under the ACCA, the elements of the crime of conviction must be the same as, or
narrower than, the relevant generic offense.

Mathis, 136 S. Ct. at 2257 (holding Iowa burglary

does not satisfy the generic definition of burglary and therefore cannot qualify as a crime of
violence).

Emmert argues this same analysis should be extended to tire enhanced penalties of

§ 2252(b)(2). that is, his prior Illinois conviction for criminal sexual assault cannot qualify as a
predicate felony to enhance his sentence under 18 U.S.C. § 2252(b)(2) because the criminal
statute encompasses conduct beyond the generic definitions of “aggravated sexual abuse, sexual
abuse, or abusive sexual conduct” listed in the federal statute.

ECF No. 19 at 5.

contends defense counsel was ineffective for failing to raise this claim.

Emmert also

Id. at 2, 6.

The Government resists the motion, asserting Emmert’s claims are procedurally barred,
untimely, and without merit.

ECF No. 26 at 7-14.

A. Procedural Bar
Emmert raises two claims in his amended complaint.

ECF No. 19 at 1.

First, he asserts

the application of Mathis to his case demonstrates his sentence violates the Due Process Clause.
Id.

Second, he contends defense counsel was ineffective for failing to raise this Mathis-type

claim.

Id.

The Government contends Emmert is procedurally barred from raising his claims

in this § 2255 motion because he failed to raise them on direct appeal.

ECF No. 26 at 7.

Claims of ineffective assistance of counsel are generally reserved for § 2255 review.
United States v. Sanchez-Gonzalez, 643 F.3d 626, 628 (8th Cir. 2011) (reviewing on direct
appeal only those “exceptional cases” where relevant factual record has been fully developed,
where failure to consider claim on direct appeal would constitute plain miscarriage of justice, or

3

Case 4:18-cv-00092-JEG Document 34 Filed 11/25/19 Page 4 of 13

alleged error is readily apparent).

Thus, raised in the context of ineffective assistance of

counsel, the claim is not procedurally barred.
Neither does the Court find that the Mathis argument, presented as an independent claim,
should be procedurally defaulted.

Generally, where a defendant fails to raise a claim on direct

appeal, he procedurally defaults the claim for purposes of collateral review unless he can
demonstrate cause and prejudice for failing to do so.
622 (1998).

Bousley v. United States, 523 U.S. 614,

‘“Absent unusual circumstances, a showing of ineffective assistance of counsel

satisfies both cause and prejudice.’”

Walking Eagle v. United States, 742 F.3d 1079, 1082 (8th

Cir. 2014) (quoting United States v. Frady, 456 U.S. 152, 167-68 (1982)).

The Supreme Court

also has excused procedural default where a claim was so novel that a legal basis was not
reasonably available at the time of appeal.

Reed v. Ross, 468 U.S. 1,13 (1984).

At the time of Emmert’s trial and direct appeal, the law regarding qualifying predicate
felonies as used to enhance criminal penalties was just beginning to evolve with respect to the
ACCA.

See Johnson v. United States, 135 S. Ct. 2551, 2563 (2015) (holding residual clause of

ACCA to be unconstitutionally vague).

Although Mathis had yet to be decided, Emm erf’s

sentencing counsel did raise the issue as to whether a modified categorical approach could be
applied to the statutory definition of the prior offense with respect to the term “minor.”

See

Def.’s Sent. Mem. 8—10, Crim. Case, ECF No. 191 (discussing application of Taylor v. United
States, 495 U.S. 575 (1990), and Descamps v. United States, 570 U.S. 254 (2013), to Illinois
conviction); see also Sent. Tr. 5, Crim. Case, ECF No. 216 (arguing Court must apply
categorical approach to determine whether Illinois conviction qualifies as predicate felony under
§ 2252(b)(2)).
Emmert’s direct appeal was decided just eight days before Mathis was issued by the
Supreme Court.

Compare Emmert, 825 F.3d at 906 (filed June 15, 2016), with Mathis, 136 S.
4

Case 4:18-cv-00092-JEG Document 34 Filed 11/25/19 Page 5 of 13

Ct. at 2243 (decided June 23, 2016).

Emmert argues counsel had “time under the 14-day

window of Rule 35 and Rule 40 of the Federal Rules of Appellate Procedure” to make some type
of Afat/n's-argument to the Court of Appeals.

ECF No. 19 at 2.

In support of his argument,

Emmert submits a copy of correspondence from his defense counsel written after his conviction
was affirmed on direct appeal.

Letter 1-2, ECF No. 22-1.

Counsel specifically referred to

Mathis in the letter but ultimately concluded such a claim was inapplicable to Emmert’s situa­
tion.

Id. at 2.
The Court recognizes the uniqueness of this argument at the time of appeal.

At the time

Mathis was decided, Johnson had not yet been applied to other federal enhancement statutes that
contained identical language.

See e.g. United States v. Davis, 139 S. Ct. 2319, 2336 (2019)

(extending Johnson analysis to 18 U.S.C. § 924(c)(3)(B)); Sessions v. Dimaya, 138 S. Ct. 1204,
1216 (2018) (extending Johnson analysis to 18 U.S.C. § 16(b)).

The application of Johnson to

§ 2252(b)(2), a statute that uses different language to define the predicate felony, was even more
questionable, which is why counsel chose not to pursue that claim in a post-appeal motion.
Because of the evolving nature of Johnson and Mathis at the time of Emmert’s appeal, the
Court concludes this claim was so novel that the legal basis was not reasonably available to him
at the time of appeal.

Emmert’s failure to raise the claims on direct appeal does not pro-

cedurally bar the claims in this proceeding.

See Reed, 468 U.S. at 13; Chaney v. United States,

917 F.3d 895, 900 (6th Cir. 2019) (movant should not be faulted for failing to make “an argu­
ment that would have had no practical effect whatsoever given the then-viable residual clause”);
United States v. Snyder, 871 F.3d 1122, 1127—28 (10th Cir. 2017) (concluding Johnson claim not
reasonably available to movant at the time of direct.appeal and provides cause and prejudice to
overcome procedural default).

5

Case 4:18-cv-00092-JEG Document 34 Filed 11/25/19 Page 6 of 13

Thus, Emmert’s amended claims, both his independent Due Process claim and his claim of
ineffective assistance of counsel, are not procedurally barred.
B.

Timeliness

Emmert had one year after his conviction was final to bring a § 2255 motion.
2255(f)(1).

28 U.S.C. §

His conviction was final when the Supreme Court denied his application for writ of

certiorari on March 20, 2017.

Notice, Crim. Case, ECF No. 226 (filed April 5, 2017).

There­

fore, Emmert had until March of 2018 to file his § 2255 claims in order to be timely.
Emmert’s original § 2255 motion, placed in the prison mail system on March 16, 2018, was
within the one-year statute of limitation.

ECF No. 1 at 19; see Moore v. United States, 173 F.3d

1131, 1135 (8th Cir. 1999) (extending prison mailbox rule—which deems pro se prisoner’s sub­
missions “filed” the date it is placed in prison mail system—-to pro se § 2255 motion).

How­

ever, the amended § 2255 motion was not placed in the prison mail system until August 13,
2018, which was outside of the one-year time limit.

Reply 8, ECF No. 19.

“Claims made in an untimely filed motion under § 2255 may be deemed timely if they
relate back to a timely filed motion as allowed by Federal Rule of Civil Procedure 15(c).”
Taylor v. United States, 792 F.3d 865, 869 (8th Cir. 2015) (quoting Dodd v. United States, 614
F.3d 512, 515 (8th Cir. 2010)).

An amended claim relates back to the original motion if “the

amendment asserts a claim or defense that arose out of the conduct, transaction, or occurrence set
out—or attempted to be set out—in the original pleading.”

Fed. R. Civ. P. 15(c)(1)(B).

A

claim will “arise out of the same conduct, transaction, or occurrence,” if the new claim is “tied to
a common core of operative facts.”

Taylor, 792 F.3d at 869 (internal quotations omitted).

Further, the facts alleged in the prior pleading “must be specific enough to put the opposing party
on notice of the factual basis for the [new] claim.”

6

Id, (internal quotations omitted).

Case 4:18-cv-00092-JEG Document 34 Filed 11/25/19 Page 7 of 13

The Government asserts Emmert’s new claims do not relate back because “[pjrior to
August of 2018, Emmert had not claimed that the prior felony conviction at issue was not a
proper conviction to enhance the punishment in his case.”

ECF No. 26 at 9.

Emmert

disagrees and asserts there were at least four references in his original § 2255 motion to which
the new claim relates back.

Emmert Aff.

7 (a)-(d), ECF No. 22.

First, Emmert refers to his ineffective assistance of counsel claim, which alleged defense
counsel rushed through the objections at sentencing.

Id. at % 7(a).

There Emmert alleged

counsel
waited till the day of PSR objections being due to file an extension (DCD 184).
Swift told Emmert the phone lines were down and unable to contact Emmert, but
made no attempt to visit. Swift then rushed through the objections, not fully
researching them. Which, was critical stage as Emmert is sentenced in regards to
the information contained in those reports.
Attach. F 22, f 23, ECF No. 1 -8 (grammar and punctuation in original).

This language supports

Emmert’s claim that defense counsel failed to thoroughly prepare for sentencing and failed to
consider all possible objections.

There is nothing in this language or its context, however, to

put the Government on notice that Emmert believed counsel should have argued his previous
Illinois conviction was overly broad and unable to stand as a predicate felony under § 2252(b).
Emmert refers to three additional descriptions in his § 2255 motion that allege he was
punished for his 1989 Illinois conviction three times.

See ECF No. 22 at

7(b) (referring to

Attach. M 17, ECF No. 1-15); id. at ^ 7(c) (referring to Attach. H 4-5, H 2, ECF No. 1-10); and
id. at § 7(d) (referring to Attach. I 18, f 11, ECF No. 1-11).

The allegations of multiple punish­

ment are discussed in that context of judicial misconduct in Attachment M.

Attachments H and

I do raise the multiple punishment issue in the context of ineffective assistance of trial and
appellate counsel, but the argument is that Emmert received multiple punishments for the same

7

Case 4:18-cv-0OO92-JEG Document 34 Filed 11/25/19

crime.

Page 8 of 13

f
He does not allege or make any inference that 18 U.S.C. § 2252(b)(2) was overly broad

as applied to his Illinois conviction.
Emmert appears to be arguing the mere reference to increased punishment or any allegation
of ineffecti ve assistance of counsel relates the new claim back, to the original motion.
.not sufficient.

This is

'‘[IJt is not enough that both an original motion and an amended motion allege

ineffective assistance of counsel during atrial.”

Dock!., 614 F.3d.at.515 (8 th Cir. 2010).

Instead Lhe allegations that serve.as the basis of the ineffective assistance of counsel claim “must
be of the same ‘time and type’ as those in the. original motion, such that they arise from the same
core set of Operative facts.”

Id. (further citations omitted).

The claims raised in the original § 2255 motion assert Emmert was punished for the 198.9
conviction three trines, one of those times being the sentence given under § 2252(b)(2).

The

amended.claims, however, allege EmmeiTs 1989 Illinois conviction sweeps too broadly to
qualify as a predicate felony under § 2252(b)(2).

Although both claims'arose from the: impo­

sition of the same sentence, these are distinct legal theories.
claims in the original motion.

They are not the same type as the

EmmeiTs allegations in the original § 2255 were not “specific

enough to. put the opposing party on notice of the factual basis for the claim.”

Id.

Without

any tie to “a common core of operative facts” in the original § 2255 motion, the amended claims
do not relate back and are therefore untimely.
C.

Substantive Claim

Even if EmmeiTs amended claims related back, they would fail on the merits either
because the 1989 Illinois conviction qualifies as a predicate felony under § 2252(b)(2), or
alternatively, any error pursuant to the imposition of sentence under § 2252(b)(2) was harmless.

8

Case 4:18-cv-00092-JEG Document 34 Filed 11/25/19 Page 9 of 13

1. Qualifying Predicate Felony
The minimum and maximum sentence for a child pornography conviction is increased
where the defendant has a prior state conviction “relating to aggravated sexual abuse, sexual
abuse, or abusive sexual conduct involving a minor or ward.”

18 U.S.C. § 2252(b)(2).

Emmertwas convicted of Illinois criminal sexual assault, which at the time was defined as
when a
person commits an act of sexual penetration and:
(1) uses force or threat of force;
(2) that the victim knows is unable to understand the nature of the act or is
unable to give knowing consent;
(3) is a family member of the victim, and die victim is under 18 years of age;
or
(4) is 17 years of age or over and holds a position of trust, authority or super­
vision in relation to the victim, and the victim is at least 13 years of age but
under 18 years of age.
720 Ill. Comp. Stat. 5/11-1.20 (1989) (formerly numbered Ill. Rev. Stat. 1989, Ch. 38, para. 1213).

Emmert contends his conviction for Illinois criminal sexual assault cannot qualify as a

predicate conviction under § 2252(b)(2) because it encompasses conduct that is broader than the
state statutes listed in §2252(b)(2) related to sexual abuse.

ECF No. 19 at 7.

Generally, courts use a categorical approach to determine whether the prior conviction used
to enhance a sentence is broader than the statute used to enhance the sentence.
Ct. at 2248.

Mathis, 136 S.

Under this approach, a court is to “focus solely on whether the elements of the

crime of conviction sufficiently match the elements of [the crime as federally defined], while
ignoring the particular facts of the case.” Id.

If a statute sets out a single set of elements to

define a single crime, and those elements criminalize conduct beyond what was intended by the
federal statute, then a conviction under the indivisible statute cannot serve as a predicate felony
to enhance a defendant’s sentence.

Id. at 2248-49.

9

If the elements of the statute are set out as

Case 4:18-cv-00092-JEG Document 34 Filed 11/25/1S Page 10 of 13

alternatives defining multiple crimes, however, then the statute is deemed divisible, and courts
are toapply a modified categorical approach to determine whether the charged offense is
encompassed by the definition intended by the federal statute.

Id. at 2249.

A court applying

the modified categorical approach may “lookQ to a .limited class of documents (for example, the
indictment, jury instructions, or plea agreement and colloquy) to determine what crime, with
what elements, a defendant was convicted of.”

Id. (citing Shepard v. United Slates, 544 U.S.

13, 16 (2005)).
Emmert argues his Illinois conviction is indivisible because the crime could be committed
in multiple ways or means to '‘produce the same conviction with the same penalty range.”

ECF

No. 19 at 5-6; see Mathis, 136 S. Ct. at 2248-49 (statute that lists alternative means as opposed
to alternative elements to commit crime is indivisible).

Emmert suggests, for example, that the

Illinois criminal sexual assault statute could be violated by the marriage of minor step-siblings,
even though the crime would not “relate to” any type of sexual abuse as listed by the federal
enhancement statute.

ECF No. 19 at 6.

An enhancement under § 2202(b), however, “does not require the state statute of conviction
to be the same as or narrower than the analogous federal law.

Rather, the words ‘relating to: in

§ 2252(b) expand the range of enhancement-triggering convictions. > >>

United States v.

Kaufmann, 940 F.3d 377, 378 (7th Cir. 2019) (citing United States v. Kraemer, 933 F.3d 675,
679-83 (7th Cir. 2019)).
The Eighth Circuit Court of Appeals has signaled its agreement with this analysis, stating
the categorical approach set out in Mathis “is inapposite to § 2252.”
854 F.3d 987, 993 n.2 (8th Cir. 2017).

United States v. Mayokok,

In Mayokok, the Court of Appeals described how the

Armed Career Criminal Act, the statute challenged in Mathis, defines a “violent felony" as one
that "is'' a felony as set out in the applicable clause of the statute.
10

Id. (emphasis added).

Case 4:18-cv-00092-JEG Document 34 Filed 11/25/19 Page 11 of 13

Mayokok concluded that such a “concrete term” requires that the predicate crime be either the
same as or narrower than those of the generic offense described in the federal statute.

Id.

Under § 2252, however, “Congress used the modifier ‘relating to,’ and “we must assume’ that it
did so ‘for a purpose.’” Id. (citing United States v. Sonnenberg, 556 F.3d 667, 671 (8th Cir.
2009) (holding the state laws described in 18 U.S.C. § 2252(b) do not require exact similarity
with federal definitions in order to apply)).

That purpose, “was to subject a wider range of prior

convictions to the § 2252(b)(1) enhancement.”

Id.; cf. United States v. Boleyn, 929 F.3d 932,

936 (8th Cir. 2019) (in context of aiding and abetting conviction, “when a federal enhancement
provision incorporates state offenses by language other than a reference to generic crimes, the
categorical approach still applies, but the inquiry is focused on applying the ordinary meaning of
the words used in the federal law to the statutory definition of the prior state offense.”) (citing
Sonnenberg, 556 F.3d at 671); but see United States v. Reinhart, 893 F.3d 606, 615 n.4 (9th Cir.
2018) (rejecting Mayokok s analysis as unpersuasive).
The language of § 2252(b)(2) does not have to “criminalize exactly the same conduct,” but
only criminalize conduct which “relates to” state sexual abuse laws.
992-93.

Mayokok, 854 F.3d at

“The phrase ‘relating to’ carries a broad ordinary meaning, i.e. to stand in some

relation to; to have bearing or concern; to pertain; refer; to bring into association or connection
with.”

Id. (quoting Sonneberg, 556 F.3d at 671).

Given this common definition, the Court

concludes the Illinois statute for criminal sexual assault necessarily “relates to” the statutes listed
in § 2252(b)(2), and Emmert was correctly sentenced under that statute.
2. Harmless Error
Finally, regardless of procedural bar, timeliness, or whether the Illinois conviction may
serve as a predicate felony to the application of § 2252(b)(2), Emmert cannot show he suffered
any prejudice as a result of his sentence.

“On collateral review, an error is harmless unless it
11

Case 4:18-cv-00092-JEG Document 34 Filed 11/25/19 Page 12 of 13

results in ‘actual prejudice,’ that is, a ‘substantial and injurious effect or influence in deter­
mining’ a movant’s sentence.”

Golinveauxv. United States, 915 F.3d 564, 569-70 (8th Cir.

2019) (citing Brecht v. Abrakamson, 507 U.S. 619, 637 (1993)).
§ 2252(b)(2) resulted in a lesser sentence for Emmert.

In this case, the application of

With a total offense level of 43, and

criminal history category of IV, Emmert’s guideline range was life imprisonment under the
Sentencing Guidelines.

PSR 21 ^ 105, Ciim. Case, ECF No. 188; see also Sent. Tr., Crim.

Case, ECF No. 216 (“this case actually results in a guideline range that would be life”).

The

statutory maximum of 20 years was well below life imprisonment, the sentence the Court would
have imposed under the Sentencing Guidelines.

Thus, even if there was any error in applying

§ 2252(b)(2) to Emmert’s sentence, and the Court does not concede there was, the error would
have been harmless, and Emmert is not entitled to relief.
C. Ineffective Assistance of Counsel Claim
To show counsel failed to provide constitutionally effective assistance under the Sixth
Amendment, a movant must show (1) counsel’s representation was deficient, and (2) the
deficiency was prejudicial.

Strickland v. Washington, 466 U.S. 668, 687 (1984).

Because the Court concludes above that a Mathis-type argument would not have succeeded
in the Court of Appeals, counsel’s failure to raise a meritless argument cannot constitute ineffec­
tive assistance of counsel.
curiam).

Rodriguez v. United States, 17 F.3d 225, 226 (8th Cir. 1994) (per

This claim must also be dismissed.

III. SUMMARY AND CONCLUSION
After careful review, the Court concludes Emmert’s amended claims are untimely and,
even assuming timeliness, without merit.

It plainly appears Emmert is not entitled to relief, and

his § 2255 motion is DENIED without evidentiary hearing.

12

See Rule 4(b) of the Rules

Case 4:18-cv-00092-JEG

Document 34 Filed 11/25/19 Page 13 of 13

Governing Section 2255 Proceedings in the United Slates District Courts.

The case is

DISMISSED
Pursuant to Rule 11 (a) of tire Rules Governing Section 2255 Proceedings in the United
States Courts, the Court must issue or deny a Certificate of Appealability when it enters a final
order adverse to the movant.

District Courts have the authority to issue certificates of appeal-

ability under 28 U.S.C. § 2253(c) and Federal Rule of Appellate Procedure 22(b).

A certificate

of appealability may issue only i fa movant “has made a substantial showing of the denial of a
constitutional right.

2-8 U.S.C. § 2253(c)(2).

A substantial -showing'is a showing “that

reasonable jurists could debate whether (or, for that-matter, agree that) the petition should have
been resolved in a different manner or that the issues presented were adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (internal
quotation marks and citations omitted).
Emmert has not made a substantial showing of the denial of a constitutional right regarding
his claims, and no Certificate of Appealability1 will issue in this case. Fie may request
issuance of a Certificate of Appealability by a judge on. the Eighth Circuit Court of Appeals.
See Fed. R. App. P. 22(b).
IT IS SO ORDERED.
Dated this 25th day of November, 2019.

/'/1

Qa? (jjj -j—

( MflffB L ■ JjlwaiM ^
JAMES E. GRnmiCSepor Judge
U.S. DISTRICT COURT

13

Case 4;18-cv-00092-JEG Document 35 Filed 11/26/19 Page 1 of 1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF IOWA

JUDGMENT IN A CIVIL CASE
DAVID LEE EMMERT, JR.,
•CASE NO.: 4:18-cv-00092
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent

____ _ JURY VERDICT. This action came before die Court for trial by jury. The issues
have been tried and the juiy has rendered its verdict.
/

_ DECISION BY COURT. This action came before the Court. The matter has been fully
submitted and a decision has been rendered.

IT IS ORDERED AND ADJUDGED:
Petitioner's § 2255 motion is denied. The case is dismissed. No Certificate of
Appealability will issue in this case.

Date: November 26, 2019
Clerk, U.S. District Court

By: Deputy Clerk

*

0^33

ieJ- )

/ 27

i

i

£43

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
CENTRAL DIVISION

DAVID LEE EMMERT, JR.,
Movant,

)
)
)

vs.

)
)

UNITED STATES OF AMERICA,
Respondent.

Civil No. 4:18-CV-00092-JEG
Crim. No. 3: ll-cr-00116-JEG

)
)

MOTION TO ALTER, AMEND or VACATE ORDER (Doc. 34),
RULE 59(e) of the FEDERAL RULES CIVIL PROCEDURE,
(Confirmation Bias)

David Emmert appears pro se and moves the Court under Rule 59(e) of the
Federal Rules of Civil Procedure to alter, amend or vacate the order denying him
relief under 28 U.S.C. § 2255. His fundamental challenge under habeas corpus is
the 10-year mandatory (statutory) minimum enhancement for the legal misuse of
a prior state-court conviction, under 18 U.S.C. § 2252(b)(2).
Emmert's statutory sentencing range was raised from "0-10" years, to "10 to
20" years, as handed down in United States v. Emmert, 3:ll-cr-00116-JEG-HCA
(S.D. Iowa) ("Crim. Case"). This challenge found support in Mathis v. United
States, 136 S.Ct. 2243 (2016), and Shepard v. United States, 544 U.S. 13,16 (2005).

1

A Brief History
A jury convicted Emmert of possession of child pornography in violation of
18 U.S.C. § 2252(a)(4)(B). [Crim. Case, Doc. No. 198]. The Court sentenced
Emmert to 240 months in prison despite his objections to the PSR that this was
improper because his prior state-court conviction should not be counted. [Crim.
Case Doc. 186: Objections to PSI at p20,1105: Sentencing range "should be 78-97
months"]. Emmert's conviction and sentence were affirmed on appeal. United
States v. Emmert, 825 F.3d 906 (8th Cir. 2016).
In his original pro se § 2255 motion, Emmert asserted multiple grounds for
relief. [ECF No. 1: 2255]. Because it was not clear what claims Emmert was
asserting, the Court directed Emmert to amend his pleading. [ECF 4: Order, at 12], The Court then granted Emmert's request for counsel and directed counsel to
file an amended motion. [ECF 7: Order at 1-2]. In addition, Emmert did his best
to obediently shave the original 300-page § 2255, down to a mere 8 pages, based
on information extracted from the filing. [ECF 19]. Unfortunately, the Court
mistook this single ground of already-claimed operative facts as a "new" ground
(because it admittedly did not read the first one), even though Emmert's motion
to amend cited to the original facts and moved as an amendment under Rule 15.
The Court granted Emmert's motion to amend, dismissed all previous claims,

2

and directed the Government to respond to Emmert's claims. [ECF 21: Order at
1-2].
The Government resisted Emmert's claims. [ECF 26]. Emmert, pro se, filed
supplemental materials in support of his claims. [ECF 22: Aff.]; ECF 29: Reply;
and ECF 32: Supplemental Authority]. Counsel for Emmert also filed a response
in support of Emmert's claims. [ECF 30].
As demonstrated below, Emmert here argues that the Court materially
omitted facts and law which reasonable jurists could conclude were debatable in
its review and ruling on the § 2255 motion.

Procedural Posture
The Court agrees that Emmert is not procedurally barred from raising the
Mathis claim under either theory (Due Process or IAC). "Emmert's amended
claims, both his independent Due Process claim and his claim of ineffective
assistance of counsel, are not procedurally barred." [ECF 34: Order at 6]. After
all, this was the same factual basis he challenged in the PSR. [Crim. Case., Doc.
186-9: PSR Objections at 20,1104]. And one of the same issues that Emmert's
attorney discussed at sentencing: [ECF 34: Order at 4, citing Crim. Case Doc. No.
216, Sentencing Transcript at 5] (Arguing Court must apply categorical approach
to determine whether Emmert's prior Illinois conviction qualifies as a predicate

3

felony under § 2252(b)(2).) Emmert's appellate attorney also wrote a letter about
this post-appeal briefing, responding to Emmert's request to challenge the
mandatory minimum sentence enhancement, too. [ECF No. 22-1 (Letter at 1-2,
mentioning Mathis)].
The ingrained history (factual basis) of the claim has matured post-Mathis, as
the Court recognizes. This motion under Rule 59(e) points to reversible internal
inconsistencies and omission of dispositive material. Read correctly, Emmert's
2255 claim is both timely and substantively valuable.

Enumerated Errors
The Court augers two independent theories for denying the 2255 (timeliness
and substantive), both of which Emmert challenges in this Motion under Rule
59(e):
1. The Court allowed the "relates back" amendment on the previously
raised "operative set of facts" admitting it was "rambling" [ECF 4].
But inexplicably the Court now finds a denial theory labeled
"timeliness" for not relating back. Therefore, Emmert first challenges
the omitted yet dispositive, previously raised facts below as well as the
overlooked law of pro se filings.
2. The Court then whip-saws from that outcomes-based, narrow
definition of "relates," and three pages later explodes the same
"relates" term to "carry a broad ordinary meaning," in order "to subject

4

a wider range of prior convictions to the § 2252(b)(1) enhancement,"
contra the categorical approach in tension among circuits. (Emphasis
added)
In short, the Order materially overlooks relevant facts mentioned in ECF 1
(claiming "0 to 10" to "10 to 20-year" mandatory-minimum enhancement); the
court denies relief on a false premise without mentioning the pro se standards of
interpretation. And by citing to sister Circuit law (nearly all pre-Mathis) and dicta
in our Eighth Circuit, the court denies relief on the untrue premises embedded in
those decisions; decisions which primarily pre-date Mathis and fly in the face of
the Ninth and the Second Circuits use of Mathis/Taylor applications of the
categorical approach of prior sex offenses. Esquivel-Quintana v. Sessions, 198
LED2d 22 (May 30, 2017).

Standards
The court must grant Emmert's motion if it finds "the sentence was imposed
in violation of the Constitution or laws of the United States, or that the court was
without jurisdiction to impose such sentence, or that the sentence was in excess
of the maximum authorized by law, or is otherwise subject to collateral attack[.]"
28 U.S.C. § 2255(a). When "jurisdictional and constitutional errors" are not at
issue, "the permissible scope of a § 2255 collateral attack on a final conviction or

5

sentence is severely limited; an error of law does not provide a basis for collateral
attack unless the claimed error constituted a fundamental defect which
inherently results in a complete miscarriage of justice." Sun Bear v. United States,
644 F.3d 700, 704 (8th Cir. 2011) (en banc) (internal quotation omitted). "An
unlawful or illegal sentence is one imposed without, or in excess of, statutory
authority." Id. at 705. A statutory mandatory minimum handed down without a
proper prior conviction is one such example of a miscarriage of justice.
A movant is entitled to an evidentiary hearing on the§ 2255 motion "[ujnless
the motion and the files and records of the case conclusively show" the movant is
not entitled to relief. 28 U.S.C. § 2255(b) (emphasis added); Voytik v. United States,
778 F.2d 1306, 1308 (8th Cir. 1985) (standard for evidentiary hearing); see also
Franco v. United States, 762 F.3d 761, 763 (8th Cir. 2014) ("'No hearing is required
... where the claim is inadequate on its face or if the record affirmatively refutes
the factual assertions upon which it is based."') (quoting Anjulo-Lopez v. United
States, 541 F.3d 814,817 (8th Cir. 2008)).
However, the standard for a Certificate of Appealability is a low one, for
"reasonable jurists could debate whether (or, for that matter, agree that) the
petition should have been resolved in a different manner or that the issues
presented were adequate to deserve encouragement to proceed further." Miller-

6

El v. Cockrell, 537 U.S. 322,336 (2003) (internal quotation marks and citations
omitted).
Based on the errors below, Movant requests under Rule 59(e) that the court
fix mistakes of fact and law prior to incurring the cost of an appeal. Finch v. City
of Vernon, 845 F.2d 256, 258-59 (7th Cir. 1988). And also look at inadvertent errors
of material omission that the court obviously should include. Inglr ex rel. Estate v.
YeHon, 439 F.3d 191,197 (4th Cir. 2006). And even if the Court does not address
the confirmation bias, then reasonable jurists could debate these issues, which is
all that a COA requires. Miller-El (citing Slack v. McDaniel):

I.

Overlooked Prior Conviction Issue: "from 0 to 10, to 10 to 20 years"
Mandatory Minimum Boost, and the Pro se Standard
The Court allowed the "relates back" amendment on the previously
raised "operative set of facts" admitting it was "rambling" [ECF 4].
But inexplicably the Court now finds a denial theory labeled
"timeliness" for not relating back,

Therefore Emmert first

challenges the omitted, yet dispositive, "previously raised facts"
below, as well as the overlooked law of pro se filings.
Compare, ECF 1: 2255 Attachment H, p.3,12 (Emmert's previously raised
claim of an illegal enhancement "from 0-10, to 10-20 years" based on
misapplication of his prior state court conviction unchallenged by ineffective
counsel); with ECF 34: Order at 7-8 (material omission of the "0-10 to 10-20"
7

sentence enhancement raised in the 2255, and erroneously saying "[Emmert]
does not allege or make any inference that 18 U.S.C. § 2252(b)(2) was overly
broad as applied to his Illinois conviction.")

Pro se Standard "Relates"
Petitioners for habeas relief like Emmert are instructed to "not cite case law,"
but the Order weaponized this Rule. A pro se prisoner litigant simply reading
Title 28 U.S.C. § 2255, the Rules Governing Proceedings Under § 2255, and the
plain language of the Administrative Court's § 2255 Form ("AO 243" at \1T), will
see unanimous direction to "not argue or cite law," when filing a 2255.
AO 245 (Rev. 09/17)

12.

For this motion, state every ground on which you claim that you are being held in violation of the Constitution,
law's, or treaties of the United States. Attach additional pages if you have more than four grounds. State the facts
supporting each ground. Any legal arguments must be submitted in a separate memorandum.

GROUND ONE:
(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support vour claim.):

It is manifest bias to blame Emmert's compliance to the 2255 form to deny
relief, faulting him for not uttering the magic words "Mathis" when all he had to
do - according to the rules - was make the factual claim of an erroneous
mandatory minimum sentence enhancement; something which this Court agrees
(but does not address) that appointed 2255 counsel Zenor supports.

8

The court erred under United States v. Gray, 581 F.3d 749 (8th Cir. 2009)
(courts are to "generously consider" a pro se claim and hold a pro se filing - any
filing by an inmate, whether represented or not - to "less stringent standards
than formal pleadings drafted by lawyers"), and permit an expansive state-law
sentencing issue to move forward. (Citing Haines v. Kerner, 404 U.S. 519, 520-21
(1972). The pro se standard favors a fair interpretation of "relating," not the
impossibly narrow version in the Order.
The Court's omission of Haines and Gray, after acknowledging the gist of the
amendment under a "relates back" motion, should be corrected because the socalled Mathis ground "relates-back" to the sentencing issue raised in the original
motion. Reasonable jurists would debate that the only way this ground could
not relate back is by material omission of the language in Attachment H,
mentioned above. Even when appointed 2255 counsel Zenor got to write about
it, it was crystal clear to him what Emmert was arguing, but this Court omits to
include any comment on counsel's findings. [ECF 30: Defense Counsel's
Response].
The Court partially cites the original 2255 (which it admittedly didn't read to
comprehension), to change the meaning of one claim: "Emmert was punished for
the 1989 conviction three times, one of those times being the sentence given
under § 2252(b)(2)." [ECF 34: Order at 8]. The Court does not say how it was

9

f

able to first find the 2255 indecipherable, and then decipher it to fit a pre­
determined outcome. The Court refutes a parody of the issue by saying "Emmert
appears to be arguing the mere reference to increased punishment or any
allegation of ineffective assistance of counsel relates the new claim back to the
original motion." [ECF 34 at 8] (emphasis added). But exaggerating and
berating it as a "mere reference" unfairly represents the substantive issue raised
in the facts of the original 2255 (concerning a statutory mandatory minimum
enhancement on a prior conviction that ought not be counted). See ECF 1:
Attachment M (Due Process, adjudicative issue) at p.16, 1C(5); See also, ECF 1:
Attachment H (IAC Claim, mandatory minimum enhancement Emmert).
Emmert explicitly called for relief in Attachment H at p.3,12 and p.5,12 where
his attorney failed to object to being enhanced "from 0-10, to 10-20" prejudice
based on his state-court prior conviction.
Put simply, what the Court got wrong was that Emmert did originally make
more than "the mere reference to increased punishment." Since he was
appointed counsel based on a learning disability anyway, that overlooked fact
alone should bring pause to the Order's strangling of the definition for "relates."
Emmert's claim demonstrates sufficient facts under the pro se standard that the
mandatory minimum enhancement is the prejudice prong (a sentence exceeding

10

the statutory maximum) "from 0-10, to 10-20" under the cause of due process
(Attachment M), or IAC (Attachment H), or both.
The Court has found the narrowest and most restrictive interpretation of
"relates" to now change its tune and exclude the amendment. Reasonable jurists
would debate whether his claim "relates back," given the Order's omission of
evidence that Emmert did complain of the mandatory minimum enhancement
based on the improper use of his state-court prior conviction ... precisely what
Mathis is all about. A COA should issue because reasonable debate is all that is
required. Miller-El v. Cockrell, 537 U.S. 322,336 (2003).

II.

The Order is Internally Inconsistent Regarding the Term "Relating"
The Court whip-saws from an outcomes-based, narrow definition of
"relates," and three pages later explodes the same "relates" term to
"carry a broad ordinary meaning," in order "to subject a wider range
of prior convictions to the § 2252(b)(1) enhancement," contra the
categorical approach in tension among circuits. (Emphasis added)
See, ECF 34 at 11, citing United States v. Sonnenberg, 556 F.3d 667, 671 (8th Cir.

2009) (pre-Mathis), United States v. Mayokok, 854 F.3d 987, 993, n.2 (8th Cir. 2017)
(dicta); and United States v. Boleyn, 929 F.3d 932, 936 (8th Cir. 2019) (post-Mathis,
inapplicable aiding and abetting case).

11

The Court acknowledges a deepening Circuit Split on the issue. [ECF 34 at
11, citing United States v. Reinhart, 893 F.3d 606, 615 n.4 (9th Cir. 2018) (rejecting
Mayokok)]. The Court at bar does not mention Reinhart's progeny United States v.
Schlopp, 938 F.3d 1053 (9th Cir. 2019), nor its substantive harmony with United
States v. Kroll, No. 16-4310 (2nd Cir. March 5, 2019).) The Order acknowledges the
supplemental authority filed at bar, but neither analyzes nor responds to it.
Reasonable jurists would debate the self-contradictory back-and-forth use of
the word "relates" (narrow to broad) as classic confirmation bias. But to be fair, it
is worth citing at length from the Order's denial regarding this "relating to"
theory:
"Emmert argues his Illinois conviction is indivisible because the crime
could be committed in multiple ways or means to "produce the same
conviction with the same penalty range." ECF No. 19 at 5-6; see Mathis,
136 S. Ct. at 2248-49 (statute that lists alternative means as opposed to
alternative elements to commit crime is indivisible). Emmert suggests, for
example, that the Illinois criminal sexual assault statute could be violated
by the marriage of minor step-siblings, even though the crime would not
"relate to" any type of sexual abuse as listed by the federal enhancement
statute. ECF No. 19 at 6.
An enhancement under § 2252(b), however, "does not require the state
statute of conviction to be the same as or narrower than the analogous
federal law. Rather, the words 'relating to' in § 2252(b) expand the range
of enhancement-triggering convictions." United States v. Kaufmann, 940

12

F.3d 377, 378 (7th Cir. 2019) (citing United States v. Kraemer, 933 F.3d 675,
679-83 (7th Cir. 2019)).
The Eighth Circuit Court of Appeals has signaled its agreement with
this analysis, stating the categorical approach set out in Mathis "is
inapposite to § 2252." United States v. Mayokok, 854 F.3d 987, 993 n.2 (8th
Cir. 2017). In Mayokok, the Court of Appeals described how the Armed
Career Criminal Act, the statute challenged in Mathis, defines a "violent
felony" as one that "is" a felony as set out in the applicable clause of the
statute. Id. (emphasis added).
Mayokok concluded that such a "concrete term" requires that the
predicate crime be either the same as or narrower than those of the generic
offense described in the federal statute. Id.
Under § 2252, however, "Congress used the modifier 'relating to/ and
'we must assume' that it did so 'for a purpose.'" Id. (citing United States v.
Sonnenberg, 556 F.3d 667, 671 (8th Cir. 2009) (holding the state laws
described in 18 U.S.C. § 2252(b) do not require exact similarity with
federal definitions in order to apply)). That purpose, "was to subject a
wider range of prior convictions to the § 2252(b)(1) enhancement." Idcf
United States v. Boleyn, 929 F.3d 932, 936 (8th Cir. 2019) (in context of
aiding and abetting conviction, "when a federal enhancement provision
incorporates state offenses by language other than a reference to generic
crimes, the categorical approach still applies, but the inquiry is focused on
applying the ordinary meaning of the words used in the federal law to the
statutory definition of the prior state offense.") (citing Sonnenberg, 556 F.3d
at 671); but see United States v. Reinhart, 893 F.3d 606,615 nA (9th Cir. 2018)
(rejecting Mayokok's analysis as unpersuasive).

13

The language of § 2252(b )(2) does not have to "criminalize exactly the
same conduct," but only criminalize conduct which "relates to" state
sexual abuse laws. Mayokok, 854 F.3d at 992-93. "The phrase 'relating to'
carries a broad ordinary meaning, i.e. to stand in some relation to; to have
bearing or concern; to pertain; refer; to bring into association or
connection with." Id. (quoting Sonnenberg, 556 F.3d at 671). Given this
common definition, the Court concludes the Illinois statute for criminal
sexual assault necessarily "relates to" the statutes listed in § 2252(b)(2),
and Emmert was correctly sentenced under that statute."
[Doc. 34: Order at 10-11] (Emphasis added).

When the Order relies on that Mayokok phrase, "the categorical approach set
out in Mathis is inapposite to § 2252," it was dicta, in a footnote. When the Order
relies on Sonnenberg's phrase, "'relating to' carries a broad ordinary meaning," it
was prior to Mathis, but more importantly, prior to the Supreme Court decision
Esquivel-Quintana v. Sessions, 198 LED2d 22 (May 30, 2017), which explicitly
referenced the Illinois conviction at bar, 720 Ill. Comp. Stat. 5/11/1.20.
Esquivel-Quintana held that federal enhancement statutes [such as § 2252(b)(2)
at bar], shall not boost a defendant's sentence for prior state convictions relating
to "sexual abuse of a minor," where the statute contains - as one of its factual
causation scenarios that are broader than the federal categorical comparison that victim's age to be 17.

14

When the Order says that § 2252(b) "does not require the state statute of
conviction to be the same as or narrower than the analogous federal law. Rather,
the words 'relating to' in § 2252(b) expand the range of enhancement-triggering
convictions," it does so by citing to a non-controlling sister circuit in United States
v. Kaufmann, 940 F.3d at 378 (citing Kraemer), and avoids talking about Schlopp or
Kroll.
Following current law, the Court erred in its substantive review of the claim
under Mathis v. United States, 136 S.Ct. 2243 (2016), and Shepard v. United States,
544 U.S. 13,16 (2005). Esquivel-Quintana dealt with having a prior conviction for
"any aggravated felony." This was followed by a word salad of possibilities
mentioned in Title 8 which weave an even more broad application than "relating
to" specific federal offenses as those defined in Chapter 109A!

In Decreasing Order of Specificity, the Categorical Approach is Uniformly
Applied (From "Is," to "Relates to," and finally "Any" State Conviction)
The Court's reliance on dicta in United States v. Mayokok, 854 F.3d 987,993 n.2
(8th Cir. 2017), and United States v. Kraemer, 933 F.3d 675, 679-83 (7th Cir. 2019) is
an error that narrowly distorts the "violent felony" analysis of Mathis, Taylor,
Shepard, etc. To explain, the statute 18 U.S.C. § 924(e)(2)(B)(i) (residual clause)
mentions "any" conviction that "has an element"; but § 924(e)(2)(B)(ii)

15

(enumerated clause) [the only section that Mayokok describes] has "violent
felony" as one that "is" a felony as set out in the applicable clause of the statute.
The Ninth Circuit decisions of United States v. Reinhart, 893 F.3d 606,615 n.4
(9th Cir. 2018), United States v. Schlopp, 938 F.3d 1053 (9th Cir. 2019), reveal the
difference between good data and bad data. Kraemer's reasoning only focused on
the "is" of the enumerated clause, completely ignoring the problem child of the
residual clause. As the Court is aware, "any" conviction with an "element"
could no longer be reasonably handled - even by the categorical and modified
categorical approaches, and was struck down as unconstitutional. What is more,
Esquivel-Quintana (post-Mathis), and Mellouli v. Lynch, 135 S.Ct. 1980 (2015) (preMathis) dealt with immigration statutes analyzing prior sex offenses using the
(

"any aggravated felony" language, similar to the residual clause. "Any" felony
as used in Esquivel-Quintana and Mellouli is broader than "relates to" of
2252(b)(2).
For the Court at bar to discard the categorical approach for the lowestrecidivism offenders (by citing to a different circuit decision which relied on
historically false data), but keep the categorical approach intact for higher-risk
offenders (by class), is asinine. See the United States Sentencing Commission:
"The Past Predicts the Future: Criminal History and Recidivism of Federal Offenders",
March 2017 Report, available at www.ussc.gov. immigration cases account for

16

55.1 % recidivism, which far out-number sex offenders (at 37.6% recidivism).
[USSG Report, Table 4. See attached].
The Court turns the categorical approach on its head by basically saying
"anything illegal in the state" relates to "any current federal sex offense." That
flies in the face of logic, reason, data, and empirical analysis. It confirms the
practice of prejudicially referring to a whole class of offenders rationalized by a
perverse voodoo victimology.
The notion that the "relating to" language of§ 2252(b)(2) somehow neuters
the categorical approach is based on outdated data; data so destructive it
undermined Congressional efforts since 1996 (see attached). In Packingham v.
North Carolina, U.S., No. 15-1194 (2017), the Supreme Court compared the 2003
Bureau of Justice Statistics report examining recidivism rates for sex offenders
released in 1994, to a voluminous amount of current research. According to the
arguments in Packingham, the Justice Department Report relied upon by
Congress in the Kraemer decision (which was in turn relied upon by this Court at
bar to deny relief), is junk science.
It turns out these old prejudicial notions were written by an Oregon prison
psychologist with a master's degree and no research background, who claimed
that "his sex offender treatment program worked better than anyone else's."
This travesty of justice infected the SCOTUS decision of Smith v. Doe,

17

U.S.

, a 2003 decision which upheld the constitutionality of sex offender
registries, something which the SCOTUS acknowledged its 2003 basis as
erroneous when deciding Packingham (8-0 unanimous decision; briefs of
Petitioner and amicus, fully adopted into this Motion as if set forth here.)
Criticized by Packingham, the statistic mentioned in Smith v. Doe - that 80
percent of convicted sex offenders will offend again - is off by an average of 65
percent, depending on offender's risk levels, according to research from Arizona
State University law professor Ira Ellman. Id. If the Supreme Court (or this
Court, for that matter) relies on the faulty figures again it would unjustly subject
people like Emmert to inappropriately harsh sentences; people who pose "no
clear and present danger ... they're no more likely to offend than most of us." Id.
This Court's rationalization for applying a "broad, ordinary meaning" that
turns the categorical approach on its head comes from Kraemer. But Kraemer gets
it dead wrong on recidivism statistics (citing 1998 Congressional decisions which
show the Seventh Circuit relied on the flawed Department of Justice reports.) It
also relies - not on a Title 18 or Immigration case - but rather a tax case to read
the tea leaves of "relates to." Kraemer, citing Lamar, Archer & Cofrin, LLP v.
Appling, 138 S.Ct. 1752, 1760 (2018), and five other pre-Mathis circuit decisions.
Nowhere is this error more clear than Kraemer's "relating to" search as relied
upon in another deportation case oiMellouli v. Lynch, 135 S.Ct. 1980 (2015) (pre-

18

Mathis, an enhancement triggered when one is "convicted of a violation of ... any
law or regulation of a State, ... relating to a controlled substance." Kraemer, 2019
U.S. App. LEXIS 12.
The Court at bar is lulled by the same sad siren song relied upon in Kraemer,
that is, exclusively on law enforcement testimony "about the nature of child sex
offenders, how they seek out relationships with children and how the recidivism
rates for such offenders are 10 times higher than other, types of criminal
offenders." Kraemer, 2019 U.S. App. LEXIS at 16-17, citing H.R. Rep. No. 105-557,
at 12 (1998). So much of Emmert's acquitted and uncharged conduct warped the
Court's sentencing at bar, that the completely wrong hermeneutic about
recidivism among sex offenders was the straw the broke the camel's back.
That false recidivism and irrelevant conduct data is good for law enforcement
budgets, but devastating to the Truth. What is more, our sister circuits are
already disagreeing with turning the categorical approach on its head for a certain
class of persons: "Sex offenders are no more likely to re-offend than a member of
the general public." Packingham.
Empirical and scholarly studies demonstrate sex offenders are among the
least likely to re-offend, even below immigration cases (cases which use a
broader "any" reference to a state prior, and "relates to" as well). See, Id.; see also,

19

By way of comparison, it is like saying "abortion clinics are far more likely to
reduce abortions and unwanted pregnancies by lobbying for criminalizing a
class of persons who offer pro-life counseling services at their clinic doors,"
when the empirical data suggests the opposite: Planned Parenthood's own
records demonstrate skyrocketing abortion rates from 1973 to 2000, and in
N.O.W. v. Scheidler, the Supreme Court shows that sidewalk counseling (which
N.O.W. unsuccessfully claimed was criminal under RICO), actually saves lives,
reducing the murder of abortion, and encourages healthy pregnancies. The
chilling truth is that no federal statute is exempt from using the categorical and
modified categorical approach when analyzing a prior sex offense, just because it
is a sex offense.

Conclusion
Reasonable jurists would debate whether the files and records of the case
"conclusively" show Emmert is not entitled to relief on his single 2255 claim. An
evidentiary hearing is warranted and the § 2255 motion must be granted, or else
a Certificate of Appealability issued.
Both the "relates to" issue and the "relates back" issue should use a fair
definition of "relates" connected to reality. The Court is requested to not deepen
the divide which separates the current disposition with the majority of "relates

20

to" and "any" prior conviction language; language used to analyze prior
convictions from offenders with much higher recidivism rates than sex offenders.

13-1/?— 1<?

Is/.

Date Executed
David Lee Emmert, pro se
Under penalty of perjury pursuant to
13155-030
28 U.S.C. § 1746,1 hereby swear and verify
P.O. Box 1000
that the foregoing is true and correct as an affidavit;
Marion, IL 62959
Further, that it has been deposited under Prison
Mailbox Rule this day in the institution's internal mail
System designed for legal mail, United States Postal
Service, first-class postage prepaid.

21

Certificate of Service
I hereby certify that a copy of the foregoing was mailed this day via United States
Postal Service, first-class postage prepaid, upon the following:

Clifford R. Cronk
AUSA
131 East 4th St. Suite 310
Davenport, IA 52801
Adam D. Zenor
500 E. Court Ave.
Suite 200
Des Moines, IA 50309

3-Hft

t o

is!

o

n 7

Date Executed

David Lee Emmert, pro se

22

Case 4:18-cv-00092-JEG Document 37 Filed 12/30/19 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
CENTRAL DIVISION
DAVID LEE EMMERT, JR.,
Movant,

Civil No. 4:18-cv-00092-JEG
Grim. No. 3:lI-cr-00116-JEG-HCA

vs.

ORDER

UNITED STATES OF AMERICA,
Respondent.

Before the Court is Movant David Lee Emmert, Jr.’s Motion to Alter or Amend the Court’s
judgment pursuant to Fed. R. Civ. P. 59(e).

ECF No. 36.

On November 25, 2019, the Court

dismissed Emmert’s Motion to Vacate, Set Aside, or Correct Sentence under 28 U.S.C. § 2255.
Order, ECF No. 34.

The Motion challenged the sentence in United States v. Emmert, 3:11-cr-

00116-JEG-HCA (S.D. Iowa).

After amending his original § 2255 motion, the only claims

before the Court were whether Emmert was entitled to relief based on Mathis v. United States,
136 S. Ct. 2243 (2016), and a Sixth Amendment claim based on counsel’s failure to previously
raise a Mathis-type claim.

Reply 1, ECF No. 19.

The Court determined the claim was not proceduraliy barred.

ECF No. 34 at 3-6.

Nonetheless, because the claim did not “relate back” to any claim made in the original and
timely § 2255 motion, the Court concluded the claim was untimely.

Id. at 6-8 (Mzt/r/s-type

claim riot specific enough to put opposing party on notice of factual basis for claim).

Moreover,

even if the claims had been timely, they would have been without merit, id. at 8-11, or would
have resulted in harmless error. Id. at 11-12.
Rule 59(e) is limited to correcting “manifest errors of law or fact or to present newly
discovered evidence” and cannot be used to introduce new facts or legal arguments which could
have been offered or raised earlier. Holder v. United States, 721 F.3d 979, 986 (8th Cir. 2013)
1

Case 4:18-cv-00092-JEG Document 37 Filed 12/30/19 Page 2 of 2

(internal citations omitted).

Emmert’s Rule 59 motion reasserts the legal argument he raised in

his counseled and pro se briefs or raises information which could have been raised prior to the
entry of the Court’s final order.

Emmert has not shown any manifest error of law or fact to

justify amending or altering its order.
The motion to alter or amend, ECF No. 36, is DENIED.
IT IS SO ORDERED.
Dated this 30th day of December, 2019.

JAMES E. GRUZRER, Senior Judge
U.S. DISTRICT COURT

2

APPEAL NO. 20-1179

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

DAVID LEE EMMERT, JR.,
Appellant - Movant,
vs.
UNITED STATES OF AMERICA,
Appellee - Respondent.

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA, CENTRAL DIVISION
Crim. No. 3:ll-cr-00116-JEG
Civil No. 4:18-cv-00092-JEG
James E. Gritzner, District Court Judge

MOTION for CERTIFICATE OF APPEALABILITY
David Lee Emmert, pro se
USM # 13155-030
P.O. Box 1000
Marion, IL 62959
Prepared by:
Eric D. Welch
Paralegal / USM # 10444-089
P.O. Box 1000
Marion, IL 62959

1

H

Contents
JURISDICTION............................................

2

QUESTIONS PRESENTED FOR REVIEW

4

SUMMARY OF ARGUMENT...................

4

STATEMENT OF THE CASE

7
7

\ Enumerated Clear Errors of Fact:

12

ARGUMENT.

Standard of Review.......................................................................................................... 12
Mr. Emmert Has Made a Substantial Showing of Ineffective Assistance................. 13
1.

Whether Reasonable Jurists Would Debate That the District Court Erred in

Either the Rule 59(e) or 2255 Ruling, When Applying the "Relates Back" and Pro se
Standard By Clear Error ... When it Did Not Read the Initial 2255.............................. 15
2.

Would Reasonable Jurists Debate Whether the District Court Erred in Applying
20

the Categorical Approach in Tension Among Circuits:
A.

By Whip-sawing from a narrow definition of "relates," to exploding the same

term to a "broad ordinary meaning," in order "to subject a wider range of prior
convictions to the § 2252(b)(1) enhancement," by citing to dicta and pre-Mathis
decisions in this circuit, and conflicting interpretations from sister circuits............ 20
b.

Disregarding the Supreme Court's guidance on age-specific sex offenses,

including the state-court sex offense at bar................................................................... 24
False and Misleading Recidivism...................................................................................... 27
The Policy Considerations of Recidivism Studies and Statistics Lobby in Favor of
Granting a COA.............................................................................. ............................... 27
Conclusion.................................................. ............................................................................. 32

41

JURISDICTION

A jury convicted Emmert of possession of child pornography in violation of
18 U.S.C. § 2252(a)(4)(B). [Crim. Case, ECF 198]. The Court sentenced Emmert to
240 months in prison. [Id. at 2]. Emmert's conviction and sentence were affirmed
on appeal. United States v. Emmert, 825 F.3d 906 (8th Cir. 2016).
wr

In his original pro se § 2255 motion, Emmert asserted multiple grounds for
relief. [ECF 1]. Because the court was unclear what claims Emmert was asserting,
Judge Gritzner directed Emmert to amend his pleading. [ECF 4: Order at 1-2].
The Court then granted Emmert's request for counsel and directed counsel to file
an amended motion. [ECF 7: Order at 1-2].
Rather than amend the motion, counsel filed a report stating none of
Emmert's § 2255 claims were viable. [ECF 18: Report at 8]. However, counsel
filed a follow-up to that report, and supported a "relates back" amendment he
agreed from the facts to be practical. [ECF 30: Response supporting Mathis
claim].
F.mmprt sought leave to bring "only nnp ground for rplipf" that is, a Fifth

Amendment claim based on Mathis v. United States, 136 S. Ct. 2243 (2016), and a
Sixth Amendment claim based on counsel's failure to previously raise a Mathis2

•H

type claim. [ECF 19]. The Court granted Emmert's motion to amend, dismissed
all previous claims, and directed the Government to respond to Emmert's claims.
[ECF 21: Order 1-2].
The Government resisted Emmert's claims. [ECF 26: Response]. Emmert, pro
se, filed supplemental materials in support of his claims. [ECF 22: Aff.; ECF 29:
Reply; and ECF 32: Suppl.] The district court considered those documents and
counsel's materials filed on his behalf in its review and ruling on the § 2255
motion, but the court made no record statement about having actually read the
entire initial 2255. [ECF 34: 2255 Denial]. Emmert filed a timely Rule 59(e)
motion, which was denied. [ECF 37].
David Emmert appears pro se and moves the Court for a Certificate of
Appealability because reasonable jurists would debate the district court's denial
of his motion under 28 U.S.C. § 2255. For the reasons below, this Court has
jurisdiction to grant a certificate of Appealability ("COA") to Mr. Emmert, under
Rule 22(b)(1) of the Federal Rules of Appellate Procedure, and

28 U.S.C.

§ 2253(c)(1)(B).

H
3

QUESTIONS PRESENTED FOR REVIEW

The district court augured two catch-all theories for denying relief (i.e.
procedural and substantive). As such, the questions on appeal are as follows:
1) Whether Reasonable Jurists Would Debate That the District Court
Committed Clear Error in Either the 2255 Ruling, the Rule 59(e), or Both
When Applying the "Relates Back" and Pro se Standard
2) Would Reasonable Jurists Debate Whether the District Court Erred in
Applying the Categorical Approach in Tension Among Circuits:
a. By Whip-sawing from a narrow definition of "relates," to exploding
the same term to a "broad ordinary meaning," in order "to subject a
wider range of prior convictions to the § 2252(b)(1) enhancement," by
citing to dicta and pre-Mathis decisions in this circuit, and conflicting
interpretations from sister circuits.
b. Disregarding the Supreme Court's guidance on age-specific sex
offenses, including the state-court sex offense at bar.
c. False and Misleading Recidivism.

SUMMARY OF ARGUMENT

Emmert's challenge is the 10-year mandatory (statutory) minimum
enhancement:- he allege^ that his- prior state^court^conviction -(which-ds- age-

4

H

specific) is constitutionally improper under 18 U.S.C. § 2252(b)(2). Said another
way, Emmert's statutory sentencing range was raised from "0-10" years, to "10 to
20" years, for a prior conviction that does not qualify under the categorical
approach.
This challenge finds support in (1) already-claimed operative facts, (2) Mathis
v. United States, 136 S.Ct. 2243 (2016), Shepard v. United States, 544 U.S. 13, 16
(2005), and (3) because the Illinois statute punishes both a wider swath of
conduct than the federal generic offense, and also punishes based on an age of
17, instead of 16. See, Esquivel-Quintana v. Sessions, 198 LED2d 22 (May 30, 2017)
(Granting relief and explicitly referencing the Illinois conviction at bar, 720 Ill.
Comp. Stat. 5/11/1.20, with a different federal baseline statute, but the same
categorical approach for a sex offense using state-law statute of conviction).
The district court materially overlooked relevant facts. Emmert repeatedly
claimed that "0 to 10" to "10 to 20-year" mandatory-minimum enhancement was
improper). Also, the district court ignored or unfairly misapplied the pro se
standards of interpretation, avoided commenting or discussing the initial 2255,
and from all accounts did not read it to comprehension (in order to form a fair
basis for comparison on what is "new" and what "relates back"). fECF 4: Order,

5

H

Characterizing Emmert's initial attempt as "rambling," acknowledging his
"learning disabilities" and "articulation issues."

See below on Emmert's

condition of Jacobson's Syndrome).]
Finally, by citing to sister-Circuit law (nearly all pre-Mathis), and dicta in our
Eighth Circuit, the district court denied relief using authority from the Seventh
Circuit; a Circuit in tension with other circuit courts of appeal on the issue. The
district court did not find the prickly issue "debatable" despite circuit conflict on
how to apply the categorical approach of prior sex offenses to a federal baseline
offense.

The Supreme Court guidance of Esquivel-Quintana v. Sessions, 198

LED2d 22 (May 30, 2017) was likewise ignored. Emmert argues that the district
court's material omissions, overlooked law, and use of a circuit split between the
7th Circuit and the 9th/2nd Circuits to neuter the categorical approach, is a priori
debatable, where the Eighth Circuit has not definitively decided the issue.
Therefore, Emmert requests a Certificate of Appealability because reasonable
jurists would disagree in their review on the § 2255 and Rule 59(e) rulings.

6

4

STATEMENT OF THE CASE

A jury convicted Emmert of possession of child pornography in violation of
18 U.S.C. § 2252(a)(4)(B).

[Crim. Case, Doc. No. 198]. The Court sentenced

Emmert to 240 months in prison despite his objections to the PSR saying this was
improper because his prior state-court conviction should not be counted. [Crim.
Case Doc. 186: Objections to PSI at p20,1104-5: Sentencing range "should be 7897 months"] (Ex. B). Emmert's conviction and sentence were affirmed on appeal.
United States v. Emmert, 825 F.3d 906 (8th Cir. 2016).
In his original pro se § 2255 motion, Emmert asserted multiple grounds for
relief. [ECF No. 1: 2255]. Because the district court was not clear on what claims
Emmert was asserting (he suffers from an emotional-cognitive disorder known
as Jacobson's Syndrome, which is closely related to the Down's Syndrome range of
mental/physical abilities, PSR at 1%^. ). the court directed Emmert to amend his
pleading. [ECF 4: Order, at 1-2]. On that record, for all intents and purposes the
district court did not read the original 2255 in its entirety.
ENUMERATED CLEAR ERRORS OF FACT:
1. ECF 1: 2255 Attachment H. p,3, 11 ("The ludge in sum, stated that he
was sentencing Emmert to the maximum allowed and was not going to
7

review or correct Emmert's PSR objections. Swift filed to object at
sentencing or in direct appeal."); and Id., f2 ("Emmert was originally
punished for [the state court case] in his original conviction [ECF 1, Ex.
25]. Emmert was then enhanced due to his past [Crim. ECF No. 5],
enhancing Emmert's sentence from "0-10" to "10-20" [years].... Now
Emmert is punished a third time by increasing his punishment to the
maximum of 20.") Id. ("Swift noted that the government was double
counting to inscrease [sic] Emmert's criminal historyf.] ... "Swift
calculated Emmert at a range of 78 to 97 months [], well under the
maximum 20 years that he had received.")
2. ECF 1: Attachment M (Due Process, adjudicative issue) at p.16, 1C(4)
("Emmert's sentencing range was 78-97 months") (citing objections to
the PSR's p.20, ^105.), and <j[C(5) ("punished for EB [the state of Illinois
conviction] 3 times

i) original conviction in 1989; ii) enhancement

(Crim. ECF 5); iii) and increased punishment on top of the [mandatory
minimum] enhancement... to further increase punishment.")
3. ECF 1: Attachment I at p. 17, 111 (IAC for prejudicially avoiding appeal
issue that "Emmert was punished for everything but possession: a) []
once in the original [state] conviction, twice for increased punishment
[sentencing enhancement]; and third for EB's statements at sentencing
and her new unproven allegations of abuse.") Emmert clarified that
being punished for "everything but possession" included the
—mandatory-minimunrenhancement§ 2252(b)(2")7rand-certain-Suidelines
enhancements.
8

H

4. Crim. Doc. ECF 202, 112: Motion for New Trial filed Spring 2014 and
included as a substantive attachment to the 2255 docket, ECF 1:
"Approx 1-1/2 years ago defendant wrote his attorney over the
enhancement that he had paper that said a person who committed
an act while 18 yrs and older and seen no provision to include
minors charged as an adult. That he didn't think the enhancement
applied.

His attorney ignored his letter and gave no response.

Currently defendant re-told his attorney, who responded like was
his 1st time hearing it. His attorney could not find where it state that
problem is due to 1-1/2 yrs ago defendant doesn't know either since
sent all papers to his attorney prior to trial.
Defendant not sure if it's in the enhancement definitions,
application notes, or what is proscribed as a sex offense under state
law.
But believes that enhancement refers to state sex crimes and in
definition of those state crimes. It stated a person who commits a
sex crime as an adult 18+ and up. Not a minor committed as an
adult.
If it applies defendant's would of been sentenced to 0 to 10 yrs
not 10 to 20. Since he was a minor 17 [age] convicted as an adult.
Which would effect his time.
Defendant requested his attorney research and received no
response except that enhancement don't' state age. Defendant think
its in definition as to what constitutes as a state sex crime."

9

H

The district court next granted Emmert's request for counsel and directed
counsel to file an amended motion. [ECF 7: ORDER at 1-2]. Emmert also received
the assistance of a fellow inmate, who is a paralegal, to help in relevant
communication. In addition to this help, Emmert shaved the original 300-page
§ 2255, down to a mere 8 pages based on information extracted from the initial
filing. [ECF 19: Motion to Amend]. Given the sudden shift in justiciability and
pending dismissal under Rule 4, Emmert felt under duress to re-organize his
thoughts on previously pleaded facts unless he amended it in a short time.
Emmert's Motion to Amend cited to the original facts as an amendment under
Rule 15. [ECF 19: Pro se Motion to Amend]. The Court granted Emmert's motion
to amend, dismissed all previous claims, and directed the Government to
respond to Emmert's claims. [ECF 21: ORDER at 1-2]. The Government resisted
Emmert's claims. [ECF 26].

Emmert, pro se, filed supplemental materials in

support of his claims. [ECF 22: Aff.; ECF 29: Reply; and ECF 32: Supplemental
Authority]. Counsel for Emmert also supported Emmert's claims. [ECF 30].
Inexplicably, and without asking tor Emmert's consent under Castro v. United
States, the district court construed Emmert's pro se amendment as a "new" single

10

ground.

Emmert disagreed with this interpretation because the amended

pleading was simply a re-statement of already-claimed operative facts, but this
time mentioned Mathis. [ECF 36: Motion under Rule 59(e)]. Emmert's Rule 59
motion claimed court error where Judge Gritzner admittedly did not fairly
apprehend the contents of his initial 2255. Emmert's position for the Rule 59(e),
therefore, was "what could the court compare the amendment to, if the court
agreed he did not read it?" And second, the same district court granted the
"relates back" amendment, but reversed saying the ground did not "relate back."
[Compare, ECF 1 and attachments to this COA, with ECF 37: Denial of Rule 59
Motion]. Emmert filed a notice of appeal. [ECF 38ff: Notice of Appeal].
The record shows that Emmert was not procedurally barred from raising the
Mathis claim under either Due Process or Ineffective Assistance of Counsel in his
2255: "Emmert's amended claims, both his independent Due Process claim and
his claim of ineffective assistance of counsel, are not procedurally barred." [ECF
34: Order at 6]. After all, this was the same factual basis he challenged in the
PSR. [Crim. Case., Doc. 186-9: PSR Objections at 20, <][104]; and one of the same
issues Emmert's attorney discussed at sentencing: [ECF 34: Order at 4, citing
Crim. Case Doc. No. 216, Sentencing Transcript at 51 (Arguing Court must apply

11

H

categorical approach to determine whether Emmert's prior Illinois conviction
qualifies as a predicate felony under § 2252(b)(2).)
Emmert's appellate attorney also wrote a letter about this post-appeal
briefing, responding to Emmert's request to challenge the mandatory minimum
sentence enhancement, too. [ECF No. 22-1 (Letter at 1-2, mentioning but not
applying the then-new case of Mathis)].

ARGUMENT

STANDARD OF REVIEW
Mr. Emmert need only show that reasonable jurists might debate the handling
of his § 2255 motion below, a low bar that this appeal passes. He must make a
"substantial showing of the denial of a constitutional right." 28 U.S.C.
§ 2253(c)(2). A showing is substantial enough to merit a COA when "reasonable
jurists could debate whether ... the petition should have been resolved in a
different manner or that the issues presented were adequate to deserve
encouragement to proceed further." Slack v. McDaniel, 529 U.s. 473, 484 (2000).
This_Cojurtj:amgranLMr..JEmmert_aJ20A even if the Court does not ultimately

12

H

believe that he will prevail on the merits. Miller-El v. Cockrell, 537 U.S. 322, 337
(2003) ("[A] COA does not require a showing that the appeal will succeed ... the
holding in Slack would mean very little if appellate review were denied because
the prisoner did not convince a judge, or, for that matter, three judges, that he or
she would prevail.")
MR. EMMERT HAS MADE A SUBSTANTIAL SHOWING OF
INEFFECTIVE ASSISTANCE
Reasonable jurists could debate whether the district court erred in denying
Mr. Emmert a hearing to establish the ineffectiveness of his trial counsel. They
also could debate the district court sailing on the sea of uncertainty outside the
Eighth Circuit, where the compass needle spins from one authoritative position
to another on the issue at bar. Mr. Emmert asserts that if circuit courts of appeal
debate the issue, reasonable jurists would also, and therefore a COA should
issue.
Even if the above is passed by, the clear error by the district court of
substantially ignored facts submitted in the initial 2255 (attached here for
convenience), show that if they were included, it does not "conclusively"

13

H

preclude a claim for ineffective assistance of counsel or due process; therefore, a
hearing was statutorily required. 28 U.S.C. § 2255(b).
Emmert's motion would pass muster if it finds "the sentence was imposed in
violation of the Constitution or laws of the United States, or that the court was
without jurisdiction to impose such sentence, or that the sentence was in excess
of the maximum authorized, by law, or is otherwise subject to collateral
attackf.]" 28 U.S.C. § 2255(a) (emphasis added). Emmert claimed both Fifth and
Sixth Amendment rights within his one ground that gave him an
argumentatively excessive sentence.
A movant is entitled to an evidentiary hearing on the § 2255 motion "[ujnless
the motion and the files and records of the case conclusively show" the movant is
not entitled to relief. 28 U.S.C. § 2255(b) (emphasis added); Voytik v. United States,
778 F.2d 1306, 1308 (8th Cir. 1985) (standard for evidentiary hearing); see also
Franco v. United States, 762 F.3d 761, 763 (8th Cir. 2014) ("'No hearing is required
... where the claim is inadequate on its face or if the record affirmatively refutes
the factual assertions upon which it is based."') (quoting Anjulo-Lopez v. United
States, 541 F.3d 814,817 (8th Cir. 2008)).

14

The standard for a Certificate of Appealability is a low one, for "reasonable
jurists could debate whether (or, for that matter, agree that) the petition should
have been resolved in a different manner or that the issues presented were
adequate to deserve encouragement to proceed further." Miller-El v. Cockrell, 537
U.S. 322,336 (2003) (internal quotation marks and citations omitted).

Whether Reasonable Jurists Would Debate That the District Court Erred
in Either the Rule 59(e) or 2255 Ruling, When Applying the "Relates Back" and
Pro se Standard By Clear Error ... When it Did Not Read the Initial 2255
1.

Compare, ECF 1: 2255 Attachment H, p.3,

(Emmert's previously raised

claim of an illegal enhancement "from 0-10, to 10-20 years" based on
misapplication of his prior state court conviction unchallenged by ineffective
counsel); with ECF 34: Order at 7-8 (material omission of the "0-10 to 10-20"
sentence enhancement raised in the 2255, and erroneously saying that,
"[Emmert] does not allege or make any inference that 18 U.S.C. § 2252(b)(2) was
overly broad as applied to his Illinois conviction.") This is false and misleading.
Reasonable jurists could conclude that the previously raised facts were
sufficient to amend the initial pleading. The district court does not mention them
all completely, and this Court has the obligation to decide for itself whether
15

H

Emmert's pro se, mentally challenged efforts rise to the level of acceptance for a
"relates back" amendment.

Pro se Standard "Relates"
Petitioners for habeas relief like Emmert are instructed to "not cite case law,"
but the district court's order weaponized this Rule.

A pro se prisoner litigant

simply reading Title 28 U.S.C. § 2255, the Rules Governing Proceedings Under
§ 2255, and the plain language of the Administrative Court's § 2255 Form ("AO
243" at *112), will see unanimous direction to "not argue or cite law," when filing
a 2255.
Reasonable jurists could find confirmation bias by exploiting Emmert's
compliance to the 2255 form to deny relief, faulting him for not uttering the
magic words "Mathis" when all he had to do - according to the rules - was make
the factual claim of an erroneous mandatory minimum sentence enhancement;
something which the district court agrees (but does not address) when it
appointed 2255 counsel.

And for all that, appointed counsel agreed on all

aspects ot Emmert's pro se efforts (both in the amending, and in the substance). It

16

W

was not novel since he raised the issue in his PSR objections, at sentencing, and
attached his defense counsel's letter mentioning Mathis to his initial 2255.
At sentencing, the district court judge admitted to a pre-meditated "max"
sentence and further said he would "not review the PSI objections" and give
Emmert "life" if he could. By not objecting, reasonable jurists could find that
counsel was ineffective on a likely appeal issue, and further find that neither the
statutory mandatory minimum enhancement nor any Guidelines enhancements
demonstrated a certain bias in the court and not simply an adverse ruling.
Without an objection, Emmert was in a poor position to ask the Eighth Circuit to
examine the reasonableness of the judge not including his justification for not
reading the PSR objections. If the sentencing transcript can be understood on its
face, this is evidence of why the district court did not even read Emmert's initial
2255 to have a fair basis of comparison when ruling on the amendment.
The district court took an unusual tack, contra the standard affirmed in United
States v. Gray, 581 F.3d 749 (8th Cir. 2009) (courts are to "generously consider" a
pro se claim and hold a pro se filing - any filing by an inmate, whether represented
or not - to "less stringent standards than formal pleadings drafted by lawyers").
In Gray, the court permit an expansive state-law sentencing issue to move

17

H

forward. (Citing Haines v. Kerner, 404 U.S. 519, 520-21 (1972).) Reasonable jurists
would debate that the pro se standard favors a fair interpretation of "relating,"
not the impossibly narrow version in the order.
The court's omission of Haines and Gray is something reasonable jurists would
think should be corrected. They could find that the only way a Mathis ground
would not relate back is by material omission of the language in Attachment H of
the 2255, among others (see enumerated errors, above). Even when appointed
2255 counsel Adam Zenor got to write about it, it was crystal clear to him what
Emmert was arguing, but the district court omits to include any comment on
counsel's findings. [ECF 30: Defense Counsel's Response].

This places the

district court's confirmation bias on refusing to read the PSR objections
supported by the empirical data on Emmert's likelihood to re-offend and what
level offender he was.
Continuing, the Court partially cites the original 2255 (which it admittedly
didn't read to comprehension), to change the meaning of one claim: "Emmert
was punished for the 1989 conviction three times, one of those times being the
sentence given under § 2252(b)(2)." [ECF 34: Order at 8]. The district court does
not say JhowjLLwas_ able to first find the 2255 indecipherable, and then decipher it

18

H

enough to fit a pre-determined conclusion. The district court refutes a parody of
the issue, by saying "Emmert appears to be arguing the mere reference to
increased punishment or any allegation of ineffective assistance of counsel
relates the new claim back to the original motion." [ECF 34 at 8] (emphasis
added). But berating it as a "mere reference" unfairly represents the substantive
issue raised in the facts of the original 2255 (that a statutory mandatory
minimum enhancement on the Illinois conviction ought not be counted). See
enumerate errors, above.
Put simply, what the district court got wrong was that Emmert did originally
make more than "the mere reference to increased punishment." This is more
than a difference of opinion, it is clear error of fact according to the record.

19

2.

Would Reasonable Jurists Debate Whether the District Court Erred in
Applying the Categorical Approach in Tension Among Circuits:
A. BY WHIP-SAWING FROM A NARROW DEFINITION OF
"RELATES," TO EXPLODING THE SAME TERM TO A "BROAD
ORDINARY MEANING," IN ORDER "TO SUBTECT A WIDER
RANGE

OF

PRIOR

CONVICTIONS

TO

THE

$2252(Bim

ENHANCEMENT." BY CITING TO DICTA AND PRE-MATHIS
DECISIONS

IN

THIS

CIRCUIT,

AND

CONFLICTING

INTERPRETATIONS FROM SISTER CIRCUITS.
The Order strangled the definition for a "relates"-back amendment.
Emmert's initial 2255 claim demonstrates sufficient facts under the pro se
standard that the mandatory minimum enhancement is the prejudice prong (a
sentence exceeding the statutory maximum) "from 0-10, to 10-20" under the
cause of due process (Attachment M), or IAC (Attachment H). Id. (enumerated
errors above).
Reasonable jurists would debate whether his claim "relates back," given the
Order's omission of evidence that Emmert did complain of the mandatory
minimum enhancement based on the improper use of his state-court prior
conviction ... precisely what Mathis is all about. A COA should issue because

20

reasonable debate is all that is required. Miller-El v. Cockrell, 537 U.S. 322,336
(2003).

The district court acknowledges a deepening Circuit Split on the issue. [ECF
i

34 at 11, citing United States v. Reinhart, 893 F.3d 606, 615 n.4 (9th Cir. 2018)
(rejecting Mayokok)]. The district court does not mention Reinhart's progeny
United States v. Schlopp, 938 F.3d 1053 (9th Cir. 2019), nor its substantive harmony
with United States v. Kroll, No. 16-4310 (2nd Cir. March 5, 2019).) The Order
acknowledges "considering" the supplemental authority filed at bar, but is silent
on any analysis and silent on attorney Zenor's own arguments filed below.
For example, see United States v. Sonnenberg, 556 F.3d 667, 671 (8th Cir. 2009), is
pre-Mathis; United States v. Mayokok, 854 F.3d 987, 993, n.2 (8th Cir. 2017), is dicta;
and United States v. Boleyn, 929 F.3d 932, 936 (8th Cir. 2019) while post-Mathis,
Boleyn is inapplicable because it is an aiding and abetting case and not about
§ 2252(b)(2). Nothing in the district court's order citing of a holding in the Eighth
Circuit is on point with the issue at bar.
Reasonable jurists would debate the district court's self-contradictory, backand-forth use of the word "relates" (narrow on the amendment, to a broad

21

H

neutering of the categorical approach), as classic confirmation bias. The Order's
denial regarding this "relating to" theory appears below:
"Emmert argues his Illinois conviction is indivisible because the crime
could be committed in multiple ways or means to 'produce the same
conviction with the same penalty range.' ECF No. 19 at 5-6; see Mathis, 136
S. Ct. at 2248-49 (statute that lists alternative means as opposed to
alternative elements to commit crime is indivisible). Emmert suggests, for
example, that the Illinois criminal sexual assault statute could be violated
by the marriage of minor step-siblings, even though the crime would not
'relate to' any type of sexual abuse as listed by the federal enhancement
statute. ECF No. 19 at 6." [Doc. 34: Order at 10-11]

In point of fact, Emmert did raise the age of 17 (under 18) limitation
difference in Illinois as an example, too. See enumerated error #4, above.
Continuing, the district court says the following:
An enhancement under § 2252(b), however, "does not require the state
statute of conviction to be the same as or narrower than the analogous
federal law. Rather, the words 'relating to' in § 2252(b) expand the range of
enhancement-triggering convictions." United States v. Kaufmann, 940 F.3d
3Z7r378 (7th Cir. 2019) (citing United States v. Kraemer,..933 F.3d 625^-679-83
(7th Cir. 2019)).

22

The Eighth Circuit Court of Appeals has signaled its agreement with
this analysis, stating the categorical approach set out in Mathis "is
inapposite to § 2252." United States v. Mayokok, 854 F.3d 987, 993 n.2 (8th
Cir. 2017). In Mayokok, the Court of Appeals described how the Armed
Career Criminal Act, the statute challenged in Mathis, defines a "violent
felony" as one that "is" a felony as set out in the applicable clause of the
statute. Id. (emphasis added).
Mayokok concluded that such a "concrete term" requires that the
predicate crime be either the same as or narrower than those of the generic
offense described in the federal statute. Id.
Under § 2252, however, "Congress used the modifier 'relating to/ and
'we must assume' that it did so 'for a purpose.'" Id. (citing United States v.
Sonnenberg, 556 F.3d 667, 671 (8th Cir. 2009) (holding the state laws
described in 18 U.S.C. § 2252(b) do not require exact similarity with federal
definitions in order to apply)). That purpose, "was to subject a wider range
of prior convictions to the § 2252(b)(1) enhancement." Id.; cf United States v.
Boleyn, 929 F.3d 932, 936 (8th Cir. 2019) ...; but see United States v. Reinhart,
893 F.3d 606,615 n* (9th Cir. 2018) (rejecting Mayokok's analysis as
unpersuasive)." [Doc. 34: Order at 10-11]
The district court concludes that "The phrase 'relating to' carries a
broad ordinary meaning, i.e. to stand in some relation to; to have bearing
nr mnrprn; to pprtain; rpfpr; fro bring into association nr ronnprtion with "

Id. (quoting Sonnenberg, 556 F.3d at 671). Given this common definition,
the Court "concltrde^ the Ullrnors^statute"for“crrmmal””sexual assault“

23

H

necessarily "relates to" the statutes listed in § 2252(b)(2), and Emmert
was correctly sentenced under that statute."
[Doc. 34: Order at 10-11] (Emphasis added).

On the contrary, when the court relies on that Mayokok phrase, "the
categorical approach set out in Mathis is inapposite to § 2252," it was dicta, in a
footnote. When the district court relies on Sonnenberg's phrase, "'relating to'
carries a broad ordinary meaning," it was prior to Mathis, but more importantly,
pre-dated the Supreme Court decision Esquivel-Quintana v. Sessions, 198 LED2d
22 (May 30, 2017), which explicitly referenced the Illinois conviction at bar, 720
Ill. Comp. Stat. 5/11/1.20.

B. DISREGARDING THE SUPREME COURT'S GUIDANCE ON AGESPECIFIC SEX OFFENSES, INCLUDING THE STATE-COURT SEX
OFFENSE AT BAR.
Esquivel-Quintana held that federal baseline enhancement statutes shall not
boost a defendant's sentence for prior state convictions relating to "sexual abuse
of a minor," where the statute contains - as one of its factual causation scenarios
That are broadeFThan the federal categorical comparison - fha Cvictim's age fo be

24

H

17. (There, a deportation case; here, § 2252(b)(2).) Even if reasonable jurists
could not argue (or for that matter, agree) that several courts of appeal are in
disagreement on the categorical approach of § 2252(b)(2) as it relates to
§ 2252A(a)(5) (simple possession), then they would argue this point: they would
likely find it debatable that the Supreme Court has come to an opposite decision
from the district court at bar for a class of offenders who are several times more
likely to re-offend than former sex offenders (see Recidivism section, below).
When the district court says that § 2252(b) "does not require the state statute
of conviction to be the same as or narrower than the analogous federal law.
Rather, the words 'relating to' in § 2252(b) expand the range of enhancement­
triggering convictions," it does so by citing to a non-controlling sister circuit in
United States v. Kaufmann, 940 F.3d at 378 (citing Kraemer), and avoids talking
about the Ninth and Second Circuit cases of Schlopp and Kroll, each of those
contra the Seventh Circuit.
Following current law, the district court erred in its substantive review of the
claim under Mathis v. United States, 136 S.Ct. 2243 (2016), and Shepard v. United
States, 544 U.S. 13, 16 (2005).

Esquivel-Quintana dealt with having a prior

convictiori-for -"any aggravatecLTelonyC' This_was_followed Jby_a word salad nf

25

H

possibilities mentioned in Title 8 which weaves an even more broad application
of "relating to" as compared to the federal offenses defined in Chapter 109A.

Reasonable Jurists Could Conclude that the Categorical Approach is
Uniformly Applied in Different Federal Baseline Statutes (from "Is," to
"Relates to," and finally "Any" State Conviction)
The district court's reliance on dicta in United States v. Mayokok, 854 F.3d
987,993 n.2 (8th Cir. 2017), and United States v. Kraemer, 933 F.3d 675, 679-83 (7th
Cir. 2019) is an error that distorts the "violent felony" analysis of Mathis, Taylor,
Shepard, etc. To explain, the statute 18 U.S.C. § 924(e)(2)(B)(i) (residual clause)
mentions "any" conviction that "has an element"; but § 924(e)(2)(B)(ii)
(enumerated clause) [the only section that Mayokok describes] has "violent
felony" as one that "is" a felony as set out in the applicable clause of the statute.
The Ninth Circuit decisions of United States v. Reinhart, 893 F.3d 606,615 n.4
(9th Cir. 2018), United States v. Schlopp, 938 F.3d 1053 (9th Cir. 2019), reveal the
debatable difference.

Kraemer's reasoning only focused on the "is" of the

enumerated clause, completely ignoring the problem child of the residual clause
or other federal statutes still using the same language. As the Court is aware,
"any" conviction with an "element" could no longer be reasonably handled by

26

Vi

the ACCA statute - even by the categorical and modified categorical approaches
- and it was therefore struck down as unconstitutional. What is more, EsquivelQuintana (post-Mathis), and Mellouli v. Lynch, 135 S.Ct. 1980 (2015) (pre-Mathis)
dealt with immigration statutes analyzing prior sex offenses using the "any
aggravated felony" language, similar to the residual clause. "Any" felony as
used in Esquivel-Quintana and Mellouli is broader than "relates to" of 2252(b)(2).
Therefore a fortiori, the categorical approach compares the federal baseline statute
of 2252(b)(2) list of generic offenses defined in Chapter 109A and 110, to the state
of Illinois prior sex offense conviction. Even if this court disagrees with that
logic, reasonable jurists would debate it according to other circuit's interpreting
the same Supreme Court decisions.

False and Misleading Recidivism

THE POLICY CONSIDERATIONS OF RECIDIVISM STUDIES AND
STATISTICS LOBBY IN FAVOR OF GRANTING A COA
The district court rationalizes-away the categorical approach for the lowestrecidivism offenders (that is, sex offenders), by citing to a different circuit
decision which relied on historically false data. Using that false premise, the

27

H

district court keeps the categorical approach intact for higher-risk offenders (by
class). See the United States Sentencing Commission: "The Past Predicts the Future:
Criminal History and Recidivism of Federal Offenders", March 2017 Report, available
at www.ussc.gov, immigration cases account for 55.1 % recidivism, which far
out-number sex offenders (at 37.6% recidivism). [USSG Report, Table 4. See
attached).
The district court turns the categorical approach on its head by basically
saying "anything illegal in the state" relates to "any current federal sex offense."
That defies logic, reason, data, and empirical analysis. It confirms the practice of
prejudicially referring to a whole class of offenders by non-empirical voodoo
victimology.
What is more, the notion that the "relating to" language of § 2252(b)(2)
somehow neuters the categorical approach is based on outdated data; data so
destructive it undermined Congressional efforts since 1996 (see attached). In
Packingham v. North Carolina, U.S., No. 15-1194 (2017), the Supreme Court
compared the 2003 Bureau of Justice Statistics report examining recidivism rates
for sex offenders released in 1994, to a voluminous amount of current research.
According to the arguments in Packingham. the Tustice Department Report relied

28

H

upon by Congress in the Kraemer decision (which was in turn relied upon by the
district court at bar to deny relief), is junk science.
It turns out these old prejudicial notions were written by an Oregon prison
psychologist with a master's degree and no research background, who claimed
that "his sex offender treatment program worked better than anyone else's."
This travesty of justice infected the SCOTUS decision of Smith v. Doe,

U.S.

j a 2003 decision which upheld the constitutionality of sex offender
registries.

When deciding Packingham (8-0 unanimous decision; briefs of

Petitioner and amicus, fully adopted into this Motion as if set forth here), the U.S.
Supreme Court acknowledged that its Smith v. Doe basis was erroneous
Criticized by Packingham, the statistic mentioned in Smith v. Doe - that 80
percent of convicted sex offenders will offend again - is off by an average of 65
percent, depending on offender's risk levels, according to research from Arizona
State University law professor Ira Ellman. Id. If the Supreme Court (or this
Court, for that matter) relies on the faulty figures again it would unjustly subject
people like Emmert to inappropriately harsh sentences; people who pose "no
clear and present danger ... they're no more likely to offend than most of us." Id.

29

Emmert's record at bar shows that in preparing for this case, he took both the
RAZOR & STATIC 99 nationally accepted sex offender assessment tools. [ECF 1,
Ex. H, 16]. Taken together, the objective psychological data shows Emmert
scored "low" risk, "unlikely" to reoffend, and did not score him as a "predator".
The capstone being Emmert needed "no further treatment". [Ex. G; and Ex. B:
PSR Objections at 17,184].

The district court's rationalization for applying a "broad, ordinary meaning,"
which turns the categorical approach on its head, came from Kraemer. But
Kraemer gets it dead wrong on recidivism statistics (citing 1998 Congressional
decisions which show the Seventh Circuit relied on the flawed Department of
Justice reports.) It also relies - not on a Title 18 or Immigration case - but rather
a tax case to read the tea leaves of "relates to." Kraemer, citing Lamar, Archer &
Cofrin, LLP v. Appling, 138 S.Ct. 1752, 1760 (2018), and five other pre-Mathis
circuit decisions.
Nowhere is Kraemer's "relating to" error more clear than in another
deportation case, Mellouli v. Lynch, 135 S.Ct. 1980 (2015) (pre-Mathis, an
enhancement-triggered when.one is "convictecLohmviolation of ... any law or

30

H

regulation of a State, ... relating to a controlled substance." Kraemer, 2019 U.S.
App. LEXIS 12.
The district court sang the same sad siren song relied upon in Kraemer, that is,
exclusively on law enforcement testimony "about the nature of child sex
offenders, how they seek out relationships with children and how the recidivism
rates for such offenders are 10 times higher than other, types of criminal
offenders." Kraemer, 2019 U.S. App. LEXIS at 16-17, citing H.R. Rep. No. 105-557,
at 12 (1998). So much of Emmert's acquitted and uncharged conduct warped the
Court's sentencing at bar, that the completely wrong hermeneutic about
recidivism among sex offenders belied reality.
That false data on recidivism and irrelevant conduct is good for law
enforcement budgets, but devastating to the Truth. What is more, our sister
circuits are already disagreeing with turning the categorical approach on its head
for a certain class of persons: "Sex offenders are no more likely to re-offend than a
member of the general public." Packingham.
Empirical and scholarly studies demonstrate sex offenders are among the
least likely to re-offend, even below immigration cases (cases which use a
broader, "anyPreference to a state_priox,-andJh:elatesJo^as_w:ell),_See,_M.;_&ee_alsQ,.

31

H

By way of comparison, it is like saying "abortion clinics are far more likely to
reduce abortions and unwanted pregnancies by lobbying for criminalizing a
class of persons who offer pro-life counseling services at their clinic doors,"
when the empirical data suggests the opposite:

Planned Parenthood's own

records demonstrate skyrocketing abortion rates from 1973 to 2000, and in
N.O.W. v. Scheidler, the Supreme Court shows that sidewalk counseling (which
N.O.W. unsuccessfully claimed was criminal under RICO), actually saves lives,
reducing murder by abortion, and encourages healthy pregnancies. The chilling
truth is that no federal statute is exempt from using the categorical and modified
categorical approach when analyzing a prior sex offense, simply for being a sex
offense.

Conclusion

This Court should grant Mr. Emmert a COA pursuant to Fed. R. App. Pro.
22(b)(1) and 28 U.S.C. § 2253(c)(1)(B) and permit the appeal to proceed.
Reasonable jurists would debate whether the files and records of the case

32

"conclusively" show Emmert is not entitled to relief on the "relating back" 2255
claim for the following reasons:

1) Reasonable Jurists Would Debate That the District Court Committed
Clear Error in Either the 2255 Ruling, the Rule 59(e), or Both When
Applying the "Relates Back," the Pro se Standard, or Both.
2) Reasonable Jurists Debate Whether the District Court Erred in Applying
the Categorical Approach in Tension Among Circuits:
a. By Whip-sawing from a narrow definition of "relates," to exploding
the same term to a "broad ordinary meaning," in order "to subject a
wider range of prior convictions to the § 2252(b)(1) enhancement," by
citing to dicta and pre-Mathis decisions in this circuit, and conflicting
interpretations from sister circuits.
b. Disregarding the Supreme Court's guidance on age-specific sex
offenses, including the state-court sex offense at bar.
c. False and Misleading Recidivism.

3 )/£. C /‘^ Q'tXCJ:

/s/.

\

L

David Lee Emmert, pro se
Date Executed
13155-030
Under penalty of perjury pursuant to
P.O. Box 1000
28 U.S.C. § 1746,1 hereby swear and verify
Marion, IL 62957
that the foregoing is true and correct as an affidavit;
Further, that it has been deposited under Prison
Mailbox-Rule-this day~in-the-institution-s4nternaLmaiTSystem designed for legal
mail, United States Postal Service, first-class postage prepaid.

33

Certificate of Service
I hereby certify that a copy of the foregoing was mailed this day via United States
Postal Service, first-class postage prepaid, upon the following:

Clifford R. Cronk
AUSA
131 East 4th St. Suite 310
Davenport, IA 52801

(

Isf.

Date Executed

David Lee Emmert, pro se

34

H

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1179
David Lee Emmert, Jr.
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the Southern District of Iowa - Des Moines
(4:18-CV-00092-JEG)
JUDGMENT
Before LOKEN, COLLOTON, and KOBES, Circuit Judges.

This appeal comes before the court on appellant’s application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
April 08, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

t

Appeal No. 20-1179

' United States Court of Appeals
For the Eighth Circuit

DAVID LEE EMMERT, JR.,
Petitioner - Appellant,
v.
UNITED STATES OF AMERICA,
Respondent - Appellee

Appeal from the U.S. District Court
for the Southern District of Iowa - Des Moines
(4:18-cv-00092-JEG)

Petition for Re-hearing Under Fed. R. App. Proc. 40
On Application for a Certificate of Appealability

David Lee Emmert, Jr.
13155-030
P.O. Box 1000
Marion, IL 62959

A petition for panel rehearing is a procedural due process right
guaranteed through the Fifth Amendment by Rule 40 of the Federal Rules of
Appellate Procedure.
Rule 40(a)(2) states, "The petition must state with particularity each
point of law or fact that the petitioner believes the court has overlooked or
misapprehended and must argue in support of the petition. Oral argument is
not permitted."
Indifference is a form of injustice. In order to quell any doubts about
the single-clerk-signed order concerning the perfunctory denial, Mr. Emmert
petitions for panel rehearing.
Overlooked or Misapprehended Points of Fact and Law
1. Whether or not the Mathis [v. United States], 136 S.Ct. 2243 (2016)1
amendment relates back necessarily begins with a question of fact. Emmert
presented record filings from ECF 1 (2255 Docket), supporting the argument
against using his prior Illinois conviction to boost his mandatory minimum
sentence. He later amended his entire initial 2255 down to just eight pages
and one ground consolidating his various mandatory minimum sentencing claims
down to the Mathis Due Process/Ineffective Assistance of Counsel claim. The
panel did not comment on the fact the district court record is silent
concerning its reading-to-comprehension of the initial 2255; in fact, the
court called it rambling and incomprehensible. The way for the Mathis
amendment to move forward hinges on a clear statement from the district court
(or the Panel at bar) on the four overlooked facts listed on pages 7-9 of
Emmert's motion for a COA. Since nothing like recognition of fact appears in
the record, panel rehearing is warranted. Perfunctory denial of this instant
petition is tacit agreement to unfairness.
2.
Whether of not the Mathis claim warrants relief is a question of law
reviewed de novo on a 2255. Since the panel's one-sentence denial lacked any

2

review standard applied to the facts in tension among circuit courts of
appeal, rehearing is warranted.
Detailed argument in support of rehearing the denial of the COA is
attached to this Petition for Panel Rehearing as a Memorandum in Support.
is hereby adopted into this Petition as if fully set forth here.

3

It

Appeal No. 20-1179

United States Court of Appeals
for the Eighth Circuit

DAVID LEE EMMERT, JR.,
Petitioner - Appellant,
vs .
UNITED STATES OF AMERICA,
Respondent - Appellee.

MEMORANDUM IN SUPPORT
[of Petition for Panel Re-hearing]

"TK*S
VMV

4k* OtiqiMil Mlk'M

3

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1179
David Lee Emmert, Jr.
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the Southern District of Iowa - Des Moines
(4:18-cv-00092-JEG)
ORDER
The petition for rehearing by the panel is denied as overlength.
May 15, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 20-1179
David Lee Emmert, Jr.
Appellant,
vs.
United States of America,
Appellee.
Appeal from U.S. D.C. S.D. Iowa - Des Moines
(4:18-CV-00092-JEG)

MOTION TO VACATE

David Burnert appears pro se requesting that the court vacate its ORDER
dated May 15, 2020 (denying rehearing as overlength). The Federal Rules of
Appellate Procedure, Rule 40(b) say a petition for panel rehearing must not
exceed 15 pages.
Mr. Emmert's Petition for Panel Rehearing was only three pages. It was
accompanied by a "Memorandum in Support" of rehearing, out of an abundance of
caution, as a representation of the issues raised in his motion for a
certificate of appealability. This was meant to make the court's job easier,
not harder. Due to his pro se status, Mr. Emmert begs this Court to vacate
its order denying rehearing and re-instate. He respectfully re-submits the
exact same three-page petition with this motion.
.$"Ah' 3O^Q
/s/
----- *
David L. Emmert
Date Executed
# 13155-030
Under penalty of perjury pursuant to
28 U.S.C. § 1746, I hereby swear and verify
P.0. Box 1000
that the foregoing is true and correct as an affidavit.
Marion, IL 62959
Further, that it has been deposited this day
in the institution's internal mail system
designed for legal mail under Prison Mailbox Rule,
United States Postal Service, first-class postage prepaid.
CERTIFICATE OF SERVICE
.
I hereby certify that a copy of the foregoing was forewarded via the
He '. Svstem upon filing by the clerk, or by United States Postal Service,
tirsc-clhss postage prepaid, upon the following:
Clifford R. Cronk, AUSA, 131 East 4th St. Suite 310, Davenport, IA 52801

Appeal No. 20-1179

United States Court of Appeals
For the Eighth Circuit

DAVID LEE EMMERT, JR.,
Petitioner - Appellant,
v.
UNITED STATES OF AMERICA,
Respondent - Appellee

Appeal from the U.S. District Court
for the Southern District of Iowa - Des Moines
(4:18-cv-00092-JEG)

Petition for Re-hearing Under Fed. R. App. Proc. 40
On Application for a Certificate of Appealability

David Lee Emmert, Jr.
13155-030
P.O. Box 1000
Marion, IL 62959

L

A petition for panel rehearing is a procedural due process right
guaranteed through the Fifth Amendment by Rule 40 of the Federal Rules of
Appellate Procedure.
Rule 40(a)(2) states, "The petition must state with particularity each
point of law or fact that the petitioner believes the court has overlooked or
misapprehended and must argue in support of the petition. Oral argument is
not permitted."
Indifference is a form of injustice. In order to quell any doubts about
the single-clerk-signed order concerning the perfunctory denial, Mr. Emmert
petitions for panel rehearing.
Overlooked or Misapprehended Points of Fact and Law
1.
Whether or not the Mathis Q. United States], 136 S.Ct. 2243 (2016)]
amendment relates back necessarily begins with a question of fact. Emmert
presented record filings from EOF 1 (2255 Docket), supporting the argument
against using his prior Illinois conviction to boost his mandatory minimum
sentence. He later amended his entire initial 2255 down to just eight pages
and one ground consolidating his various mandatory minimum sentencing claims
down to the Mathis Due Process/Ineffective Assistance of Counsel claim. The
panel did not comment on the fact the district court record is silent
concerning its reading-to-comprehension of the initial 2255; in fact, the
court called it rambling and incomprehensible. The way for the Mathis
amendment to move forward hinges on a clear statement from the district court
(or the Panel at bar) on the four overlooked facts listed on pages 7-9 of
Emmert's motion for a COA. Since nothing like recognition of fact appears in
the record, panel rehearing is warranted. Perfunctory denial of this instant
petition is tacit agreement to unfairness.
2.
Whether of not the Mathis claim warrants relief is a question of law
reviewed de novo on a 2255. Since the panel's one-sentence denial lacked any

2

review standard applied to the facts in tension among circuit courts of
appeal, rehearing is warranted.
Detailed argument in support of rehearing the denial of the COA is
attached to this Petition for Panel Rehearing as a Memorandum in Support. It
is hereby adopted into this Petition as if fully set forth here.

3

I

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1179
David Lee Emmert, Jr.
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the Southern District of Iowa - Des Moines
(4:18-cv-00092-JEG)
MANDATE
In accordance with the judgment of 04/08/2020, and pursuant to the provisions of Federal
Rule of Appellate Procedure 41(a), the formal mandate is hereby issued in the above-styled
matter.
May 22, 2020

Clerk, U.S. Court of Appeals, Eighth Circuit

*

United States Court of Appeals
For The Eighth Circuit
Thomas F. Eagleion U.S. Courthouse
111 South I Oth Street. Room 24.329

St. Louis, Missouri 63102
VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

Michael E. Gans
Clerk of Court
May 29, 2020
Mr. David Lee Emmert Jr.
U.S. PENITENTIARY
13155-030
P.O. Box 1000
Marion, IL 62959-0000
RE: 20-1179 David Emmert, Jr. v. United States
. Dear Mr. Emmert Jr.:

The motion to vacate the Judge Order denying the petition for rehearing as overlength is
rejected under Eighth Circuit Rule 40A(c). Successive petitions for rehearing are not allowed.
The clerk will accept for filing only 1 petition for rehearing from any party to an appeal and will
not accept any motion to reconsider the court's ruling on a petition for rehearing or rehearing en
banc.

Michael E. Gans
Clerk of Court
CRJ
Enclosure(s)
cc:

Mr. John S. Courter
Mr. Clifford R. Cronk
Mr. Richard D. Westphal

District Court/Agency Case Number(s): 4:18-cv-00092-JEG

